<html>
<title> - UNDERSTANDING, FORECASTING AND COMMUNICATING EXTREME WEATHER IN A CHANGING CLIMATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      UNDERSTANDING, FORECASTING,
                   AND COMMUNICATING EXTREME WEATHER
                         IN A CHANGING CLIMATE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2019

                               __________

                           Serial No. 116-49

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-741PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                           September 26, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written statement............................................     9

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written statement............................................    11

                               Witnesses:

Dr. J. Marshall Shepherd, Georgia Athletic Association 
  Distinguished Professor of Atmospheric Sciences and Geography, 
  Director, Atmospheric Sciences Program, Department of 
  Geography, University of Georgia, 2013 President, American 
  Meteorological Society
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. James Done, Project Scientist III and Willis Research Fellow, 
  Capacity Center for Climate and Weather Extremes, Mesoscale & 
  Microscale Meteorology Lab, National Center for Atmospheric 
  Research
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Adam Sobel, Professor, Lamont-Doherty Earth Observatory and 
  School of Engineering and Applied Sciences, Columbia 
  University, Director and Chief Scientist, Initiative on Extreme 
  Weather and Climate, Columbia University
    Oral Statement...............................................    50
    Written Statement............................................    52

Dr. Berrien Moore, Director, National Weather Center, University 
  of Oklahoma
    Oral Statement...............................................    63
    Written Statement............................................    65

Dr. Ann Bostrom, Weyerhaeuser Endowed Professor in Environmental 
  Policy, University of Washington
    Oral Statement...............................................    75
    Written Statement............................................    77

Discussion.......................................................    88

             Appendix I: Answers to Post-Hearing Questions

Dr. J. Marshall Shepherd, Georgia Athletic Association 
  Distinguished Professor of Atmospheric Sciences and Geography, 
  Director, Atmospheric Sciences Program, Department of 
  Geography, University of Georgia, 2013 President, American 
  Meteorological Society.........................................   118

Dr. James Done, Project Scientist III and Willis Research Fellow, 
  Capacity Center for Climate and Weather Extremes, Mesoscale & 
  Microscale Meteorology Lab, National Center for Atmospheric 
  Research.......................................................   122

Dr. Adam Sobel, Professor, Lamont-Doherty Earth Observatory and 
  School of Engineering and Applied Sciences, Columbia 
  University, Director and Chief Scientist, Initiative on Extreme 
  Weather and Climate, Columbia University.......................   135

Dr. Berrien Moore, Director, National Weather Center, University 
  of Oklahoma....................................................   138

Dr. Ann Bostrom, Weyerhaeuser Endowed Professor in Environmental 
  Policy, University of Washington...............................   150

            Appendix II: Additional Material for the Record

Report submitted by Representative Kendra Horn, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   160

White Paper submitted by Representative Kendra Horn, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   199

Document submitted by Representative Randy Weber, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   207

Charts submitted by Representative Francis Rooney, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   213

Report submitted by Dr. Ann Bostrom, Weyerhaeuser Endowed 
  Professor in Environmental Policy, University of Washington....   215

 
                      UNDERSTANDING, FORECASTING
                   AND COMMUNICATING EXTREME WEATHER
                         IN A CHANGING CLIMATE

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. This hearing will come to order. 
Without objection, the Chair is authorized to declare a recess 
at any time.
    Good morning, and welcome to our day's hearing on extreme 
weather. This is a topic that I think is universally relevant, 
as many of my colleagues and our constituents have dealt with 
extreme weather events recently. In fact, NOAA's (National 
Oceanic and Atmospheric Administration's) National Centers for 
Environmental Information found that in 2018 alone the U.S. 
experienced 14 climate weather and disasters with losses for 
each topping $1 billion. These events included drought, severe 
storms, wildfires, tropical cyclones, and winter storms, and 
they impacted nearly every State in the continental U.S.
    As of July 2019, the U.S. has already experienced six 
weather and climate events with losses greater than $1 billion 
dollars each. And July 2019 was also the hottest month on 
record worldwide, which led to record low levels of sea ice in 
both the Arctic and Antarctic.
    There is an increasing scientific consensus that human-
driven climate change is playing an undeniable role in many of 
the extreme weather events that we have experienced. Earlier 
this week, the World Meteorological Organization (WMO) of the 
U.N. released a report that found that climate change, through 
the slowing of the jet stream, could be directly linked to the 
record-breaking heatwaves experienced across North America, 
Europe, and Africa in 2018 and 2019. There was also clear 
evidence that the jet stream pattern influenced many extreme 
rainfall events as well.
    Yesterday, the IPCC (Intergovernmental Panel on Climate 
Change) released a special report on the oceans and cryosphere. 
It identified up to 90 percent of marine heatwaves from 2006 to 
2015 were due to climate change. Climate change was also 
responsible for the increased precipitation, winds, and extreme 
sea level events associated with some tropical cyclones. The 
special report also determined that some back-to-back extreme 
weather events that we have become accustomed to seeing have 
also been influenced by climate change.
    I know many of my colleagues from the Houston Gulf Coast 
area have directly experienced these impacts with the extreme 
rainfall that they saw from Hurricane Harvey 2 years ago. And 
most recently, they had to deal with Tropical Storm Imelda, 
which dropped over 40 inches of rain in some parts of Houston 
just last week.
    This hearing is especially timely given not only recent 
extreme weather events such as Dorian and Imelda, but also 
because September is National Preparedness Month. It is 
important for our constituents to understand how they can and 
should be preparing for disasters, including extreme weather. 
It is vitally important that the public can rely on official 
forecasts from the National Weather Service to inform their 
responses to weather events without worrying that these 
forecasts have been interfered with.
    Though our ability to forecast the path of a storm like 
Hurricane Dorian has greatly improved, our dedicated 
meteorologists in the National Weather Service still cannot say 
with absolute certainty what the intensity of a storm like this 
will be. These track forecasts have relied heavily on satellite 
observations, and any interference with the data in these 
observations, such as water vapor measures, could have dire 
consequences for communities that lie in the path of a similar 
hurricane.
    We have discussed in this Committee the importance of 
sustained observations to feed into the weather models that are 
used to develop forecasts and the need to continually be 
improving those models and subsequent forecasts. I expect 
today's hearing will be no different.
    But, in addition to the need to continue to support the 
physical science, observations, and modeling that goes into 
developing forecasts, there is also a need to understand how to 
better integrate the social and behavioral sciences in our 
weather enterprise. More research is needed to understand how 
our biases can impact the forecasting process, and how our past 
experiences with extreme weather events can influence how the 
public interprets forecasts and notices from emergency 
managers.
    With that, I would like to extend my welcome to our very 
distinguished panel and thank them for joining us this morning. 
We are looking forward to a robust discussion on how this 
Committee can help our country better prepare for future 
extreme weather events, events that we are likely to expect 
more frequently and intensity due to climate change.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to today's hearing on extreme 
weather. This is a topic that I think is universally relevant, 
as many of my colleagues and our constituents have dealt with 
extreme weather events recently.
    In fact, NOAA's National Centers for Environmental 
Information found that in 2018 alone the U.S. experienced 14 
climate weather and disasters with losses for each topping $1 
billion dollars. These events included drought, severe storms, 
wildfires, tropical cyclones, and winter storms, and they 
impacted nearly every state in the continental U.S. As of July 
2019, the U.S. has already experienced six weather and climate 
events with losses greater than $1 billion dollars each. July 
2019 was also the hottest month on record worldwide, which led 
to record low levels of sea ice in both the Arctic and 
Antarctic.
    There is an increasing scientific consensus that human-
driven climate change is playing an undeniable role in many of 
the extreme weather events that we have experienced.
    Earlier this week the World Meteorological Organization of 
the UN released a report that found that climate change, 
through the slowing of the jet stream, could be directly linked 
to the recordbreaking heatwaves experienced across North 
America, Europe, and Africa in 2018 and 2019. There was also 
clear evidence that this jet-stream pattern influenced many 
extreme rainfall events as well.
    Yesterday the IPCC released a Special Report on the oceans 
and cryosphere. It identified that up to 90% of marine 
heatwaves from 2006 to 2015 were due to climate change. Climate 
change was also responsible for the increased precipitation, 
winds, and extreme sea level events associated with some 
tropical cyclones. The Special Report also determined that some 
back to back extreme weather events that we have become 
accustomed to seeing have also been influenced by climate 
change.
    I know many of my colleagues from the Houston and Gulf 
Coast area have directly experienced these impacts with the 
extreme rainfall that they saw from Hurricane Harvey two years 
ago. And most recently they had to deal with Tropical Storm 
Imelda, which dropped over 40 inches of rain in some parts of 
Houston just last week.
    This hearing is especially timely given not only recent 
extreme weather events such as Dorian and Imelda, but also 
because September is National Preparedness Month. It is 
important for our constituents to understand how they can and 
should be preparing for disasters, including extreme weather. 
It is vitally important that the public can rely on official 
forecasts from the National Weather Service to inform their 
response to weather events without worrying that these 
forecasts have been interfered with.
    Though our ability to forecast the path of a storm like 
Hurricane Dorian has greatly improved, our dedicated 
meteorologists in the National Weather Service still cannot say 
with absolute certainty what the intensity of a storm like that 
will be. These track forecasts have relied heavily on satellite 
observations, and any interference with the data in these 
observations, such as water vapor measurements, could have dire 
consequences for communities that lie in the path of similar 
hurricanes.
    We have discussed in this Committee the importance of 
sustained observations to feed into the weather models that are 
used to develop forecasts, and the need to continually be 
improving those models and subsequent forecasts. I expect 
today's hearing will be no different. But, in addition to the 
need to continue to support the physical science, observations, 
and modeling that goes into developing forecasts, there is also 
a need to understand how to better integrate the social and 
behavioral sciences in our weather enterprise. More research is 
needed to understand how our biases can impact the forecasting 
process, and how our past experiences with extreme weather 
events can influence how the public interprets forecasts and 
notices from emergency managers.
    With that, I would like to extend my welcome to our very 
distinguished panel and thank them for joining us this morning. 
We are looking forward to a robust discussion on how this 
Committee can help our country better prepare for future 
extreme weather events; events that we are likely to expect 
with more frequency and intensity due to climate change.
    Thank you.

    Chairwoman Johnson. At this time I recognize our Ranking 
Member, Mr. Lucas, for an opening statement.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding 
today's hearing on extreme weather, an important topic within 
our Committee's jurisdiction.
    Extreme weather events are of concern to us all, regardless 
of what part of the country we represent. These events 
represent threats to lives, property and often occur with 
little warning. The economic toll of extreme weather events 
across the Nation is significant. The most recent U.S. National 
Climate Assessment (USNCA) stated 241 incidents with more than 
$1 billion of economic damage since 1980, including 14 such 
events in 2018 alone.
    I want to make my position clear. The climate is changing; 
global industrial activity has played a role in this. The 
complex relationship between climate and weather is in need of 
continued research, and this Committee has a responsibility to 
prioritize that research if we want America to be a global 
leader in this field. That should be the focus of today's 
hearing, not outright denial or finger-pointing on inaction. 
There are many components as we examine how best to research 
and respond to extreme weather, including how we help 
communities prepare for these events, how we improve our 
weather forecasts, and how we communicate the possibility of an 
extreme weather event to our citizens.
    This Committee has taken steps to help address these 
issues. The Weather Act, signed into law in 2017, directed NOAA 
to improve its tornado warning capabilities and hurricane 
forecasting capacity, two of the most destructive types of 
extreme weather events. Additionally, the legislation required 
NOAA to perform an assessment of its practices on communicating 
extreme weather events to the public. NOAA has made progress in 
implementing these provisions in the last 2 years, but much 
work remains.
    A Weather Act reauthorization was signed into law in 
January. Included in the legislation was congressional 
authority of NOAA's Earth Prediction Innovation Center, 
commonly known as EPIC. This initiative will make the National 
Weather Service's numerical prediction models available to the 
academic community for crowdsource forecasting on a larger 
scale, which in turn will help improve our national forecasting 
ability.
    Oklahoma is no stranger to extreme weather events. Whether 
it's an outbreak of tornadoes, severe droughts affecting our 
farmers and ranchers, or extended cold weather, we have seen it 
all. Thankfully, Oklahoma is home to one of the world's most 
renowned experts in the field of weather research and 
forecasting. The National Weather Center is located on the 
University of Oklahoma campus in Norman and houses Federal, 
State, and university researchers in a collaborative 
environment. Among the Federal offices in the Weather Center 
are NOAA's National Severe Storms Laboratory and Storm 
Prediction Centers. These offices are at the leading edge of 
researching and forecasting the outbreak of extreme weather 
events across the country.
    Additionally, Oklahoma is home to the Nation's premier 
weather mesonet. A mesonet is a series of small weather 
stations spread out across a large area which help monitor 
real-time conditions on the ground and provide citizens and 
forecasters with vital data. This data helps farmers determine 
the optimal time to plant and can alert emergency responders if 
conditions are ripe for developing a tornado. As this Committee 
considers possible legislative initiatives based on today's 
hearing, we should look at the Oklahoma mesonet as a model for 
how we can improve the forecasting and communication of severe 
weather events.
    Our panel of witnesses today bring diverse perspectives on 
researching all aspects of extreme weather events. I thank them 
for taking time to be here, and I look forward to a productive 
conversation on this important topic.
    And with that, I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson, for holding today's hearing 
on extreme weather and how we can better forecast and respond 
to it.
    Extreme weather events are of concern to us all, regardless 
of which part of the country we represent. These events 
represent threats to lives and property and often occur with 
little warning. They also take a significant toll on our 
economy. The most recent National Climate Assessment cited 241 
incidents with more than a billion dollars of economic damage 
since 1980, including 14 events in 2018 alone.
    I want to make my position clear: the climate is changing, 
and global industrial activity has played a role in this. The 
complex relationship between climate and weather is in need of 
continued research. This Committee has a responsibility to 
prioritize that research so we can continue to mitigate storm 
damage, grow our economy, and provide certainty for businesses 
that depend on accurate forecasts.
    This research should be the focus of today's hearing, 
because it's research that actually provides answers to the 
challenges we face.
    As we examine how best to research and respond to extreme 
weather, there are a variety of factors to consider, including 
how we help communities prepare for these events, how we 
improve our weather forecasts, and how we communicate the 
possibility of an extreme weather event to our citizens.
    This committee has taken steps to help address these 
issues. The Weather Act, signed into law in 2017, directed NOAA 
to improve its tornado warning capabilities and hurricane 
forecasting capacity - two of the most destructive types of 
extreme weather events. Additionally, the legislation required 
NOAA to perform an assessment of its practices on communicating 
extreme weather events to the public. NOAA has made progress in 
implementing these provisions in the last two years, but much 
work remains.
    A Weather Act reauthorization was signed into law in 
January which authorized NOAA's Earth Prediction Innovation 
Center - more commonly known as EPIC. This initiative will make 
the National Weather Service's numerical prediction models 
available to the academic community to crowdsource forecasting 
on a larger scale - which in turn will help improve our 
national forecasting ability.
    Oklahoma is no stranger to extreme weather events. Whether 
it is an outbreak of tornadoes, severe droughts affecting our 
farmers and ranchers, or extended cold weather - we have seen 
it all.
    Thankfully, Oklahoma is home to some of the world's most 
renowned experts in the field of weather research and 
forecasting. The National Weather Center is located on the 
University of Oklahoma campus in Norman and houses federal, 
state, and university researchers in a collaborative 
environment. Among the federal offices in the Weather Center 
are NOAA's National Severe Storms Laboratory and Storm 
Prediction Center. These offices are at the leading edge of 
researching and forecasting the outbreak of extreme weather 
events across the country.
    Additionally, Oklahoma is home to the nation's premier 
weather mesonet. A mesonet is a series of small weather 
stations spread across a large area which help monitor real-
time conditions on the ground and provide citizens and 
forecasters with vital data. This data helps farmers determine 
the optimal time to plant and can alert emergency responders if 
conditions are ripe for a developing tornado. As this Committee 
considers possible legislative initiatives based on today's 
hearing, we should look to the Oklahoma mesonet as a model for 
how we can improve the forecasting and communication of severe 
weather events.
    Our panel of witnesses today brings diverse perspectives on 
researching all aspects of extreme weather events. I thank them 
for taking the time to be here and look forward to a productive 
conversation on this important topic.

    Chairwoman Johnson. Thank you very much.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I'd like to introduce our witnesses. Our 
first distinguished witness is Dr. J. Marshall Shepherd. Dr. 
Shepherd is a leading international expert in weather and 
climate and is the Georgia Athletic Association Distinguished 
Professor of Geography and Atmospheric Sciences at the 
University of Georgia. Dr. Shepherd was the 2013 President of 
the American Meteorological Society. He is also the host of the 
Weather Channel's award-winning show Weather Geeks and a 
contributor to Forbes magazine. He was the first African 
American to receive a Ph.D. from the Florida State University 
Department of Meteorology.
    Our second witness, Dr. James Done, is a Senior Willis 
Fellow and Deputy Director of the Capacity Center for Climate 
and Weather Extremes at the National Center of Atmospheric 
Research (NCAR). He works with shareholders from the energy, 
water, and insurance sectors to understand future weather and 
climate extremes and their impacts. Dr. Done received his Ph.D. 
in meteorology from the University of Reading in the U.K.
    Our third witness is Dr. Adam Sobel. Dr. Sobel is a 
Professor at Columbia University's Lamont-Doherty Earth 
Observatory and the Fu Foundation School of Engineering and 
Applied Sciences and leads the Columbia University Initiative 
on Extreme Weather and Climate. He is an atmospheric scientist 
who specializes in the dynamics of climate and weather, 
particularly in the tropics, on timescales of days to decades. 
Dr. Sobel earned his Ph.D. in meteorology from the 
Massachusetts Institute of Technology.
    The Chair now recognizes our Ranking Member Lucas to 
introduce our fourth witness, Dr. Moore.
    Mr. Lucas. Thank you, Chairwoman Johnson.
    And Dr. Berrien Moore is the Director of the National 
Weather Center and Dean of the College of Atmospheric and 
Geographic Sciences at the University of Oklahoma. Dr. Moore is 
an internationally recognized Earth scientist who's been 
honored by NASA (National Aeronautics and Space 
Administration), NOAA, and multiple international 
organizations. He received his bachelor of science and 
mathematics degree from the University of North Carolina and 
his Ph.D. in mathematics from the University of Virginia. He 
was the coordinating lead author for the final chapter of the 
Intergovernmental Panel on Climate Change, Third Assessment 
Report, as such, has been honored for contributing to the 2007 
Nobel Peace Prize awarded to IPCC.
    Back in March I had the opportunity to visit the National 
Weather Center while in Norman, and I was lucky to receive a 
tour from the Director himself. You might say I'm biased, but I 
believe these facilities and the researchers there are the best 
in the world. And this is a testament to Dr. Moore's continued 
dedication to make the United States the gold standard in 
weather prediction.
    And in recognition of his lifelong work in weather science, 
he's been the recipient of numerous honors, including NASA's 
Distinguished Public Service Award, NOAA's Administrator 
Recognition Award. He's also an elected fellow of the American 
Meteorological Society and the International Academy of 
Aeronautics.
    Thank you for making the trip here today, Dr. Moore. Thank 
you, Chairwoman.
    Chairwoman Johnson. Thank you very much.
    Our final witness is Dr. Ann Bostrom, who's the 
Weyerhaeuser Endowed Professor of Environmental Policy at the 
Daniel J. Evans School of Public Policy and Governance at the 
University of Washington. She studies risk perception, 
communication, and decisionmaking under uncertainty in context 
of weather change, hurricanes, earthquakes, and tsunamis. Dr. 
Bostrom co-chaired the National Academies' study committee 
integrating social and behavioral sciences within the weather 
enterprise. She holds a Ph.D. in public policy analysis from 
the Carnegie Mellon University.
    So thanks to all of you for being here. And as witnesses, 
you should know that each will have 5 minutes for your spoken 
testimony. Your written testimony will be included in the 
record for the hearing. When you have completed your spoken 
testimony, we will begin with questions, and each Member will 
have 5 minutes to question the panel.
    We will start with Dr. Shepherd.

             TESTIMONY OF DR. J. MARSHALL SHEPHERD,

           GEORGIA ATHLETIC ASSOCIATION DISTINGUISHED

               PROFESSOR OF ATMOSPHERIC SCIENCES

       AND GEOGRAPHY, AND DIRECTOR, ATMOSPHERIC SCIENCES

               PROGRAM, DEPARTMENT OF GEOGRAPHY,

           UNIVERSITY OF GEORGIA, AND 2013 PRESIDENT,

                AMERICAN METEOROLOGICAL SOCIETY

    Dr. Shepherd. I would like to thank Chairwoman Johnson, 
Ranking Member Lucas, colleagues on the Committee, for this 
opportunity to share my thoughts on the contemporary extreme 
weather and its context within a changing climate.
    In 2013 I sat before the Senate Environment and Public 
Works Committee on a similar topic, and there's nothing that I 
would change about what I say today from what I said then 
except to amplify the message.
    NOAA recently updated what constitutes the 1,000-year flood 
in Texas because the rainfall is changing. This has 
implications for the National Flood Insurance Program and 
infrastructure design. Tropical storm Imelda and Hurricane 
Dorian joined Michael, Harvey, and Maria as extreme events that 
either rapidly intensified, stalled, or inundated regions. Was 
it caused by climate change has become a very popular question, 
but it's an ill-posed question. Extreme weather attribution 
must be carefully considered and framed without hype, 
speculation, and social media debates.
    In 2016 I served as a co-author on a study by the National 
Academies of Sciences, Engineering, and Medicine on attribution 
of extreme weather events in the context of climate change. A 
key finding is that we are able, with some degree of 
attribution, to link climate change with some degree of 
confidence, moderate to high. The fingerprint of climate change 
is imprinted on the intensity or frequency of contemporary 
heatwaves, extreme rainfall, drought, and, to some degree, 
hurricanes. There is little to no confidence in attribution of 
tornadic storms at this time, but the research continues.
    Let me stop right here and emphasize, yes, yes, yes, 
climate changes naturally and always has. It's often amusing 
when people remind me, a degreed climate scientist, of this 
fact at dinner or on social media. But it's not an either-or 
proposition. It's an ``and'' proposition. Grass grows 
naturally, but it grows very differently when we fertilize the 
soil.
    In 2018 there were $39 billion-plus disasters. According to 
insurance broker Aon, insured dollars totaled $90 billion, 
which is the fourth-highest inflation-adjusted number of such 
events. And of those events, the United States had 16 of them.
    We must message these events as kitchen-table issues and 
challenges to our water and food supply, public health 
infrastructure, and national security. It's not about polar 
bears in the year 2080. Hurricane Michael devastated my home 
State of Georgia. Hardworking Georgia farmers lost pecans, 
peanuts, and cotton. But guess what? Americans buy peanut 
butter and buy T-shirts. They felt the impact, too.
    Now, I want to quote from a book that I read, Ecclesiastes 
1:7, ``All streams flow into the sea, yet the sea is never 
full. To the place the streams come from, there they return 
again.'' This text perfectly captures the water cycle that we 
all likely learned about in fourth grade. And we know that 
water is essential to life and doesn't understand the concept 
of liberal or conservative. Yet the water cycle is changing, 
more extreme downpours, melting snowpacks, and overwhelmed 
stormwater infrastructure.
    So what do we do to move forward? We have to keep 
observational modeling capacity robust. Challenges with 
rainfall forecasts from Tropical Depression Imelda and 
intensity changes with Michael affirm the need for the EPIC 
framework that was mentioned. The National Center for 
Atmospheric Research and NOAA and other partners are moving out 
on EPIC, and I believe it's a positive step to ensure a nimble 
and responsive U.S. weather modeling capacity. To make our 
weather models the best in the world for forecasting the 0- to 
14-day range and at seasonal timescales, we need the fastest 
supercomputers available to accommodate the emerging volume of 
observational data from NOAA, NASA, and global partners. NASA 
is implementing its decadal survey recommended by the National 
Academies. NOAA is funding underwater gliders at the University 
of Georgia to help with hurricane intensity forecasts.
    But the best forecasts are bad forecasts if people don't 
interpret them, so we need continued and strong investments in 
social sciences, which we'll hear about later today. We need to 
understand risk. Increasingly, my focus is on risk because 
there are vulnerable populations in our society that because of 
social status, elevated health risks, et cetera, are more 
vulnerable to these events.
    So with that in closing, I challenge the Committee and our 
country to stand forward on advancing the resources that we 
know we need to move extreme weather forecasting forward. Thank 
you for this time.
    [The prepared statement of Dr. Shepherd follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you. Dr. Done.

                  TESTIMONY OF DR. JAMES DONE,

       PROJECT SCIENTIST III AND WILLIS RESEARCH FELLOW,

       CAPACITY CENTER FOR CLIMATE AND WEATHER EXTREMES,

            MESOSCALE & MICROSCALE METEOROLOGY LAB,

            NATIONAL CENTER FOR ATMOSPHERIC RESEARCH

    Dr. Done. Good morning, Chairwoman Johnson and Ranking 
Member Lucas. Thank you for this opportunity to testify today 
at this important hearing.
    So the United States is no stranger to extreme weather 
events, but the impacts from recent events have been 
unprecedented. And in fact we're in a new era of extreme 
weather. So we've experienced deadly heat. We've seen the 
devastating floods from recent Hurricanes Harvey, Florence, and 
just last week Tropical Storm Imelda, as mentioned earlier. And 
we've experienced the tragedy of fast-moving intense wildfire.
    So what's causing these changes? Well, the impacts from 
extreme events are due to characteristics of the weather events 
themselves but also due to characteristics of what's in harm's 
way.
    So now into climate change, a growing and pervasive risk 
multiplier. So, sure, our rising populations have contributed 
strongly to our rising impacts, but as a physical scientist I 
can see that the events that cost money such as flooding rains 
have increased.
    So as we saw the images of Hurricane Dorian recently, that 
just showed the potential for catastrophic intersection between 
a record-breaking weather event and our rising population, 
shown there in the night lights. So given that today's 
atmosphere is warmer and more moist than it used to be, it's 
inconceivable that today's weather has not changed. Indeed, our 
droughts are hotter, wildfires are larger, and our heavy rain 
events are even heavier.
    So what of the future? So 1 or 2 degrees temperature rise 
sounds fairly small, but the impacts are expected to be 
anything but. So we expect the rains to become even heavier. 
Most hurricane scientists will tell you they expect faster 
winds, heavier flooding rains, and more extensive storm surge 
inundation.
    Now consider wildfire. So already California is already one 
of the most flammable regions on Earth. The aspect of climate 
change we understand most on wildfire is the impact of our 
warming atmosphere. It demands more moisture out of the 
vegetation. This desiccated vegetation leads to more intensely 
burning wildfires that are fundamentally of a different 
character to the ones we see today.
    Now, the U.S. has world-class science and technology, so 
this includes sponsorship of the National Center of Atmospheric 
Research by the National Science Foundation, but we lack key 
understanding of the most damaging events. And perhaps more 
importantly there's a disconnect between our advancing science 
and societal benefit. And in this area of changing extremes, 
it's more important than ever to have solid, well-communicated, 
short-term forecasts and robust risk management strategies. So 
I believe there's huge gains to be had by a deep integration of 
our advancing science with risk management.
    So allow me to just give you an example from my recent 
experience as a Willis Research Fellow. I collaborate with the 
reinsurance industry. So through our interactions I learned 
that hazard risk commonly assumes that these extreme events 
don't know about each other, but I've seen in the data that 
some events, they're like buses. You wait for ages and then 
three come along at once. So scientists are excited to know how 
this can advance forecasting, and risk managers are interested 
in designing away this vulnerability.
    So my second example comes from building codes. Some work 
with I did with economists showed that for every dollar you 
spend building to code, you can expect $2 to $8 back in reduced 
losses. So this is clearly sound economic policy. And it was 
demonstrated to dramatic effect when Michael last year we saw 
homes that were not built to code were completely destroyed. 
Homes that were built to code suffered relatively minor damage.
    So to pursue this deep integration of science and risk 
management, the Federal Government has a vital role to play. So 
the new NOAA, NCAR, and community weather and climate modeling 
partnership, together with the EPIC, really serves as a model 
for how this should happen. It directs science squarely in the 
needs of society.
    And in terms of bolstering the science, as was mentioned 
earlier, we need to sustain our resources for continued 
observational platforms such as the Oklahoma mesonet, sustained 
computational infrastructure, the creation of a national data 
set of extreme events, and also sustained research grants to 
analyze and develop understanding.
    So, in conclusion then, let me reiterate the importance in 
this new era of extremes for solid, well-communicated, short-
term forecasts and robust risk management. So thank you again, 
Chairwoman Johnson and Ranking Member Lucas, for this 
opportunity.
    [The prepared statement of Dr. Done follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you. Dr. Sobel.

                  TESTIMONY OF DR. ADAM SOBEL,

          PROFESSOR, LAMONT-DOHERTY EARTH OBSERVATORY

        AND SCHOOL OF ENGINEERING AND APPLIED SCIENCES,

               COLUMBIA UNIVERSITY, AND DIRECTOR

       AND CHIEF SCIENTIST, INITIATIVE ON EXTREME WEATHER

                AND CLIMATE, COLUMBIA UNIVERSITY

    Dr. Sobel. Madam Chair, Ranking Member Lucas, and Members 
of the Committee, thank you for inviting me here today. I'm 
Adam Sobel, a Professor and Atmospheric Scientist at Columbia 
University, and I have a longer statement that I'd like to 
submit for the record.
    Extreme weather is changing due to global warming, but we 
know more about some kinds of events than others. Heatwaves are 
the best-understood type of extreme weather event. When any 
heatwave occurs today, it's probable that global warming made 
it more likely to occur, more intense once it did occur, or 
both. On the other hand, we know much less about tornadoes. 
There have been changes, but we can't yet say with confidence 
that these changes are caused by warming, nor what we expect in 
the future. Most kinds of extreme weather fall in between these 
extremes of understanding and ignorance.
    I will focus on hurricanes. Hurricane risk is increasing 
due to climate change. Storm surge-driven coastal flooding is 
certainly becoming worse due to sea-level rise. Hurricanes in a 
warmer climate also produce more rain and stronger winds, 
though there is still debate on the magnitudes of these changes 
and to what extent they're already evident. We know little, 
though, about how hurricane frequency or the total number of 
storms per year changes with warming. Natural variability makes 
any gradual human-caused trends hard to detect, and models are 
inconclusive on this question.
    Because other aspects of changes in hurricanes only matter 
when a hurricane actually occurs, this uncertainty about 
hurricane frequency limits our ability to predict changes in 
overall hurricane hazard and risk. But it would be a serious 
mistake to interpret this uncertainty or other similar 
uncertainties about exchanging extreme weather risk as license 
to delay action. Uncertainty is not our friend here.
    By analogy, imagine the FBI (Federal Bureau of 
Investigation) has inconclusive but worrying evidence that some 
bad people somewhere may be planning an attack. These people 
are having a meeting, and the FBI has managed to plant a 
microphone in the room, but it's noisy and the bad people are 
speaking quietly, making it impossible to hear what they're 
saying. Would we want the FBI to interpret this uncertainty as 
meaning there's no need to worry, or would we want them to take 
whatever reasonable measures they can to prevent the attack 
given whatever information they do have? I think most of us 
would want to take action.
    The same is true with climate and its consequences for 
extreme weather. Human-induced climate change is happening. We 
can't wait until all the uncertainties have resolved. By that 
point, we will have baked in yet much more warming and extreme 
weather that we could have avoided with earlier action.
    I'd like to end with some recommendations for timely 
research to close key gaps in our knowledge. We certainly need 
continued investment in forecasts of both weather and climate, 
including the observations, models, and methodologies that 
enable them. A greater gap, though, is research that quantifies 
the risks from extreme weather and their changes as the climate 
warms in terms of their impacts on human society, including 
economic losses, human health impacts, food and energy 
security, and so on. In particular, I advocate development of a 
new generation of catastrophe models like those used in the 
insurance industry to assess risks from extreme weather events 
but that go beyond existing industry standards by explicitly 
addressing climate change as a component of the changing risk 
and by being open source and thus subject to rigorous peer 
review. And I elaborate this in my written testimony.
    Thank you for the opportunity to participate in today's 
hearing, and thank the Committee and your colleagues on both 
sides of the aisle and both sides of the Capitol for your 
support for the Nation's research enterprise. And I'd be 
pleased to answer any questions or provide additional 
information. Thank you.
    [The prepared statement of Dr. Sobel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you. Dr. Moore.

                 TESTIMONY OF DR. BERRIEN MOORE,

               DIRECTOR, NATIONAL WEATHER CENTER,

                     UNIVERSITY OF OKLAHOMA

    Dr. Moore. Thank you, Congresswoman Chairwoman Johnson, 
Ranking Minority Member Lucas. I'm delighted to be here. I'm 
Berrien Moore, Director of the National Weather Center and Dean 
of the College of Atmospheric and Geographic Sciences at the 
University of Oklahoma. My testimony is mine alone and not 
representative of those organizations.
    Having listened carefully to my colleagues, I've adjusted 
my verbal remarks somewhat to focus on areas that they did not 
touch upon but that certainly does not mean that I'm in 
disagreement with them. Regarding climate and weather, one may 
think of it this way is that one of the great challenges is 
that some of the statistical properties that we've historically 
relied upon to help us in our forecasting are being changed.
    There are parts of Oklahoma that you can drive through by 
just simply looking in the rearview mirror because it is very 
flat. We are now entering the Rocky Mountains, and looking in 
the rearview mirror may not serve us well. So, a consequence, 
the numerical weather prediction models are those models that 
allow us to look forward into time and help us drive the 
automobile better.
    Unfortunately, as we all know, and Congress has spoken 
about this through the Weather Innovation Act, as well as the 
Drought Act of last year, bringing into existing the Earth 
Prediction Innovation Center that we as a country are not doing 
as well as some of our European colleagues. This is 
particularly unfortunate given the fact that we as a country 
seem to be subject to more weather extremes than many other 
parts of the world. And therefore, that failure of us as a 
country is particularly painful.
    I'd like to now direct my testimony on three areas. What 
new observations might we need to improve the situation? And 
then how can we assimilate those observations better in our 
numerical weather prediction models to improve our predictive 
capability? And finally, how do we improve the models 
themselves?
    Regarding observations, I think there are three principal 
topics. First of all, we have a very important weather radar 
system for the United States, but it is an aging radar system. 
The service life expectance has allowed us to extend the life 
of these radars, but we are going to need a new weather radar 
system for the United States certainly by 2040. Well, the 
implementation of that would certainly take 5 years, the 
procurement of that would certainly take 5 years, so now we're 
at 2030. Well, we have to have the requirements and the 
technological base for this new weather radar system by 
certainly 2028. That's just 8 years away. We need to get on 
with this.
    Second, satellites are extremely important to us in terms 
of our weather prediction, the GOES system, the JPSS system, 
but what I see is missing is we do not have a sounder, 
something that tells us about the humidity and the temperature 
and the water vapor in the lower part of the atmosphere. I 
think what we need to do is to fly a hyperspectral 
environmental sounder. And what we might do is put it on a 
commercial communications satellite as a hosted payload. This 
is something that we are exploring in the country. In fact, 
three of NASA's upcoming missions are going to be via hosted 
payload.
    Third--and Congressman Lucas spoke about this--the national 
mesonet, this is the gold standard of national mesonets is in 
the State of Oklahoma. Every State should have a gold standard. 
Every State merits the observational network that we in 
Oklahoma enjoy. And as we look to the future, one of the 
problems for the national mesonet is it's a ground-based 
system. As I just said with a hyperspectral sounder, we need a 
space-based system, but it needs to be complemented by a 
ground-based system that allow us to look into the third 
dimension. Certainly with the increase of drones there ought to 
be a way to do this, but it's going to require foresight and 
action by the Congress.
    Finally, I think that EPIC really does offer us an 
opportunity, the Earth Prediction Innovation Center, to go 
forward and improve the data assimilation and modeling by 
allowing us to marshal the full scientific enterprise of the 
United States to move on this problem. Thank you. I'm honored 
to be here.
    [The prepared statement of Dr. Moore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Dr. Bostrom.

                 TESTIMONY OF DR. ANN BOSTROM,

                WEYERHAEUSER ENDOWED PROFESSOR IN

         ENVIRONMENTAL POLICY, UNIVERSITY OF WASHINGTON

    Dr. Bostrom. Good morning, Honorable Chairwoman Johnson, 
Ranking Member Frank Lucas, and Members of the Committee. Thank 
you for your invitation to speak on the urgent matter of 
extreme weather events and climate change. I'm Ann Bostrom, 
Weyerhaeuser Endowed Professor of Environmental Policy at the 
Evans School of Public Policy at the University of Washington. 
I teach research methods, decisionmaking, and environmental 
policy courses, and I work to increase interdisciplinary 
research on the environment to bridge science and society and 
to ensure that investments in basic sciences are also 
benefiting our communities.
    I've also contributed to National Academies' reports, 
including ``Communicating Science Effectively: A Research 
Agenda,'' and I co-chaired with the eminent William Hooke, the 
National Academies' 2018 report ``Integrating Social and 
Behavioral Sciences within the Weather Enterprise.''
    In addition to climate change and extreme weather events, 
my research investigates other hazards and the perception of 
communication of what we know and can do about such hazards, as 
well as scientific and management uncertainties.
    Thirty years ago in my first studies of climate change risk 
perception, communication, and decisionmaking, scientists and 
laypeople voiced their expectations of more extreme weather as 
CO<INF>2</INF> emissions from our fossil fuel use warmed the 
planet. Now the scientific evidence is overwhelming that 
climate change has contributed to extreme weather events in 
recent years, increasing their severity.
    Despite the phenomenally improved forecasts that government 
research investments have enabled over recent decades, we have 
failed to forestall catastrophic damages to many of our 
communities from hurricanes, floods, droughts, and wildfires. 
To protect lives and property and to realize the full value of 
the investments made in the physical sciences, we need to 
invest in social and behavioral sciences of extreme weather and 
climate change. People need to know what to do when a tropical 
storm or hurricane threatens, for example, how driving might be 
affected and how to evacuate.
    People intuitively understand that there are uncertainties 
in weather forecasting. They do not, however, always interpret 
visual and other forecast uncertainty information in the way 
that forecasters and emergency managers wish or expect. People 
also tend to be more prepared for an event when they have prior 
experience of it.
    But while a plurality of people in the U.S. have long 
thought climate change will lead to more extreme weather 
events, their experiences may not be predictive of the weather 
extremities climate change will bring. Tropical Depression 
Imelda dumped 3 feet of rain in 24 hours, which caught people 
by surprise, despite Harvey. Much remains to learn about how 
best to communicate forecasts and forecast uncertainties in 
these circumstances.
    The careful experimental research that has been conducted 
to date shows that people can make better decisions if they are 
given explicit uncertainty information based on the best 
scientific forecasts and tailored to their decision context. 
But there is a very large need for additional research on 
communicating uncertainty for different decision contexts, 
research that brings social, behavioral, and other sciences 
together to determine how climate and weather information can 
most effectively be integrated, analyzed, and delivered to help 
forecasters, emergency managers, drivers, indeed all of us make 
better decisions.
    The National Science Foundation, the National Oceanic and 
Atmospheric Administration, and other agencies appear to be 
increasing their investments in such research. But to date they 
constitute only a very small proportion on the order of less 
than 10 percent of the weather-related research investments. 
These investments have funded pilot programs like the CASA 
Dallas-Fort Worth Living Lab Program, which provides timely, 
tailored, human-scale forecasts on personal devices and surveys 
users to achieve continuous improvement.
    To fully realize these and other lifesaving advances on a 
national and international scale will require scientific 
leadership and capacity-building across the public and private 
sectors as well.
    Thank you for the opportunity to speak with you today on 
these critical issues relating to extreme weather. I look 
forward to your questions.
    [The prepared statement of Dr. Bostrom follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much.
    We will now begin our first round of questions, and I will 
recognize myself for 5 minutes.
    As the scientific consensus continues to show certain 
extreme weather events are directly impacted by climate change, 
but there remains uncertainties in the attribution of climate 
change and to other extreme events. So my question to all of 
you, what are the most pressing research needs to better 
understand the physical processes that drive extreme weather 
events?
    Dr. Shepherd. Well, I'll start the question, and I'll focus 
on hurricanes because what we know about hurricanes from an 
extreme-event standpoint is that our forecast tracks have 
improved remarkably in the last several decades. Where we still 
lag is in intensity forecasts. And the reason that is is basic 
meteorology, the intensity processes associated with hurricanes 
involve things happening within the inner core of the hurricane 
and the eye wall of the storm beneath the storm, and so we need 
observations in those regions. Tracking or the prediction of 
track of a hurricane is governed by larger-scale processes. 
Where is the Bermuda High sitting over the Atlantic? Will that 
storm be pushed into Florida or North Carolina by that steering 
current?
    But that energy released--I often describe hurricanes like 
a car engine. There's a lot of energy being released in the eye 
wall as those thunderstorms are rising. And we're not observing 
those processes. Our models aren't scaled to represent those 
processes.
    I mentioned in my opening remarks the University of Georgia 
is testing, through some NOAA funding, these robotic underwater 
gliders, and they are actually measuring warm pools, deep ocean 
water. That type of information can be very useful in 
understanding the intensity processes.
    So to your question, Chairwoman, I think in terms of 
hurricanes, the intensity problem is still a very large 
challenge for us. I would also say on the rainfall aspect of 
the hurricanes we're seeing more rainfall in Hurricanes Harvey, 
Florence, Imelda. We warn on wind with our Saffir-Simpson 
scale. That's a wind scale.
    And so I think in terms of the communication challenges 
that we heard earlier, and it echoes with what my colleagues 
said, we need to think about ways of communicating to the 
public that rainfall and water is what kills most in storms. 
And so I think there's a combination of intensity and the 
communication of risk as we see this new normal in extreme 
events because past experience with a hurricane doesn't sort of 
predict your future outcome from a new storm because this is a 
new normal.
    Chairwoman Johnson. Thank you.
    Dr. Done. So scientists are on the cusp of something of a 
revolution in how we are able to simulate extreme weather 
events, so in the next 2 years or so we expect we'll be able to 
see these devastating events in very fine levels of granularity 
over decades. So this really represents a transformation in our 
ability to understand the processes and the interactions 
between the weather and the climate. So this represents a new 
horizon of understanding, which should feed into improved 
forecasts on the seasonal to decadal scales.
    Dr. Moore. I will buildupon what Marshall Shepherd 
mentioned and focused on hurricanes. I will focus on tornadoes. 
And I'd like to just observe that we all know the phrase 
Tornado Alley. That phrase is being replaced these days by 
Dixie Alley. There appears to be a migration of very large 
tornadic activity to the southeast. These tornadoes tend to be 
larger, and they tend to occur at night.
    Why is this happening? Well, we don't know. But we know it 
is happening. The observational infrastructure of the southeast 
presents a more difficult situation than in Oklahoma because of 
the terrain. And yet the observational situation in the 
southeast is less dense, so you have a terrain problem with a 
less-than-dense observational network, and that's going to need 
to be addressed. In particular, I think a national mesonet--
there really needs to be a national mesonet at the standards of 
Oklahoma and in fact maybe have to exceed those in these more 
terrain-challenging areas.
    Second, we're going to have to have a radar network that is 
equal to the task of the 2040s and 2030s, which is, as I 
mentioned, going to require work now.
    Finally, I think in the models, not only do the models have 
to be better in their physical properties, as Marshall 
mentioned, I think they've got to also buildupon a better 
observation basis of the boundary layer, the lower part of the 
atmosphere.
    Chairwoman Johnson. Thank you. My time is expired. Thank 
you. Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chairman.
    Dr. Moore, let's expand for a moment on your comments in 
your opening date testimony and just now about the mesonet 
system. And for our friends in the room who have never been 
exposed to it, this is a network of weather data gathering 
sites all over the great State of Oklahoma. There's, what, 
probably 30, 40, 50 information points from subsurface soil 
temperature to wind, to a variety of things. And it is fully 
accessible to everyone, correct?
    Dr. Moore. Yes, and it's well over 100.
    Mr. Lucas. Well over 100 sites. So can you discuss for a 
moment teeing off of what you've said about the challenges in 
other parts of the country about how the model could serve and 
could be a model for the rest of the country in enhancing our 
forecasting?
    Dr. Moore. One of the areas that the mesonet--first of all, 
let me back up from that and say when we look at satellites, 
particularly those satellites that are in polar orbit from pole 
to pole, that's really collecting global information that is 
extremely important for numerical weather prediction, 3, 4, 5 
days out. But when you're into the endgame of a very intense 
situation, that's when the geostationary satellites and the 
mesonet really begin to play their role because they're giving 
you timely, in situ information in the battle zone in where the 
weather event is happening. And that's proven extremely 
valuable in Oklahoma.
    I should also mention there are many other benefits. We 
have something called OK-FIRE, which basically allows a farmer 
to come on to the mesonet and query with their ZIP Code, can I 
burn the field today? Is it OK? And so the soil temperature 
information, the wind information is allowing the people to 
make better decisions. Now, these are weather-related but is an 
additional benefit to the predictive capability, particularly 
in that endgame situation.
    Mr. Lucas. And that information is available to everyone.
    Dr. Moore. Yes, it's on the web and, I mean, this is 
something that when I moved to Oklahoma I really didn't know 
about this, and all of a sudden I thought, well, this is really 
important. It allows me to have in situ information all over 
the State. And this is something that we really need at the 
national scale. And as I also mentioned, we need to take that 
information into the lower part of the boundary, into the lower 
part of the boundary layer of the atmosphere to get that in 
situ information that is really needed for weather prediction 
as you get into an endgame situation.
    Mr. Lucas. To continue, Dr. Moore, I'm of course very proud 
to have introduced the Weather Act of 2017, which was signed 
into law a little more than a couple of years ago to provide 
weather research and forecasting improvements, weather 
satellite data innovation to try and drive things forward in a 
coordinated fashion. In your experience have the goals of the 
Weather Act been met? Tell us about the implementation.
    Dr. Moore. No, I don't think they have. I think that this 
is going to be challenging. We have operated in a certain way 
in terms of improving our models for a long time, and we are 
going to need to think afresh about how we do this.
    As I mentioned, I believe we have the greatest scientific 
talent in the world in the United States in the area of 
meteorology, but it needs to be marshaled and applied to this 
national and global challenge. There are really many 
opportunities out there to allow this to happen, and I think 
the EPIC initiative is really at the fundamental level. But 
there are other elements that are right teed up for this, for 
instance, cloud computing. This may be a whole new way in which 
teams can form around critical areas and involve the cloud in a 
collaboration in terms of improving the models because we've 
got to make that improvement.
    Mr. Lucas. Yes. Speaking of that, and I address this to the 
whole panel, and we've all referenced EPIC several times. Would 
anyone care to expand on how EPIC will help improve that 
weather forecast, that scale when it comes to extreme weather?
    Dr. Moore. I'll let my colleagues speak.
    Mr. Lucas. Absolutely.
    Dr. Done. Yes, I think one of the values of EPIC is the 
two-way interaction between the research and the operations, so 
it's critical for scientists to understand the forecast needs 
and to enable the science to be relevant, so this continual 
iteration, this two-way flow can really accelerate and catalyze 
the research to operations.
    Dr. Shepherd. And I would just add to that, just like any 
good decisionmaking and problem-solving session, when you have 
more voices and ideas at the table, you have more diversity of 
thought to challenges. And so I think by bringing the academic 
community and the best ideas from academia and other partners 
into the process of the American modeling system, you're just 
bringing more good ideas to the table.
    Mr. Lucas. Well put, Dr. Shepherd. My time is expired, 
Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. McNerney.
    Mr. McNerney. I want to thank the Chair. I thank the 
witnesses for your testimony, very interesting and important.
    Dr. Done, could you explain the difference between climate 
change and climate variability and how we see the climate 
change signal in our rising losses apart from climate 
variability?
    Dr. Done. Yes. So we know that extreme events have varied 
on different time scales throughout history. So, for example, 
people have taken sediment cores along our coasts and along 
global coasts to look at the signatures in hurricanes, and they 
have varied on time scales of decades and hundreds of years, 
for example.
    So what's different today? Well, we know that we are unable 
to replicate observed trends in extreme events without invoking 
human influence in our model simulations. So we rerun the 
history with and without human activities in our models or the 
impact of human activities, and there's a clear signal that 
there's a human influence.
    And let me give you an analogy of climate variability in 
climate change. So if you imagine a dog walker taking a dog for 
a walk across a park, the line traced out by the dog can be 
thought of as climate variability. But fundamentally, the line 
trajectory by the dog walker is climate change. So climate 
variability fundamentally has to follow climate change over a 
long enough distance or time period.
    Mr. McNerney. Well, would you elaborate a bit on how risk 
management can be integrated with climate modeling?
    Dr. Done. Yes. Yes, in my experience as a Willis Research 
Fellow has shown me the value of, again, this two-way 
understanding. So I talk to risk managers to understand their 
key needs. For example, one of them, say, in California is the 
need to understand the successive atmospheric rivers or these 
winter storms in California. So I can go back to the data and 
pursue science discovery around that topic to try and improve 
our understanding of these sequences of events that will lead 
to better forecasts and better understanding of the overall 
risk.
    Mr. McNerney. Well, thank you. Dr. Shepherd, how does NCAR 
and NOAA change forecasting for extreme events such as 100-year 
flooding since we're entering a new era with changing climate?
    Dr. Shepherd. I think that's a very important question 
because that's one of the messages that I often convey. Your 
point about a new era is very important. And what we saw with 
NOAA quietly I might add, a lot of people aren't familiar with 
the fact that they are updating the flood frequency and 
rainfall maps because we are seeing changes.
    I think what we need going forward in addition to systems 
like the EPIC, which you hear us all mentioning because it is 
so important, we need to fundamentally understand sort of how 
our models, how our observations are framed to understand these 
extreme and compound extreme events. So, for example, with 
Imelda just recently in Texas it was a tropical depression when 
it dumped 3 feet of rainfall, but that wasn't the full story. 
It wasn't just the tropical depression. There was also 
something in meteorology we call a trough that which is part of 
our large-scale mid-latitude synoptic system that came into the 
State of Texas as well and sort of amplified the situation. And 
so although we saw 1 to 2 feet of rainfall potential out of 
Imelda, it dumped 3, in some cases 4 feet of rain, close to 4 
feet of rain.
    So as NCAR, NOAA, and other colleagues start to develop 
models, there will need to be assessment of how we're 
representing the extreme end or the tail end of these extreme 
events. And I think that's an area of needed research.
    Mr. McNerney. Excellent. Would you comment on the accuracy 
of climate modeling?
    Dr. Shepherd. I'm glad you asked that question because I 
come across people that often--you know, they're sort of stuck 
in this mode that the climate models aren't accurate or they 
can't tell us anything about climate. And one of the big 
challenges I see is that people confuse weather and climate 
models. They're apples and oranges. A weather model is trying 
to depict the state of the atmosphere 1, 2, 7, 10, 14 days out. 
A climate model is not trying to tell us what the atmosphere 
looks like on Wednesday at 2 p.m. in 2075. It's trying to 
predict the state of the climate system.
    And they do quite a good job because we now have a modeling 
system that represents the full Earth system. It represents the 
cryosphere, the atmosphere, the ocean, the landmass. We have 
evolved from a generation of models in the 1970s and 1980s 
where there might have been some concern about the accuracy.
    Are there still uncertainties in the climate models? 
Absolutely. There is still some uncertainty about the 
atmospheric aerosols, the pollution and particles in the 
atmosphere. There's still some uncertainty about the 
representation of clouds in those models, but there is 
certainly enough information to make a decision.
    Uncertainty gets a bad rap. Uncertainty is not we don't 
know. It just means uncertainty. If I tell you there's an 80 
percent chance of rain tomorrow, there's uncertainty in that 
information, but there's certainly enough information for you 
to grab an umbrella, too.
    Mr. McNerney. So in Dr. Done's analogy, you can kind of 
tell where the dog walker is going to go----
    Dr. Shepherd. I----
    Mr. McNerney [continuing]. Even though the wiggles are 
going to be----
    Dr. Shepherd. In terms of the climate dog, I know where 
that dog's headed.
    Chairwoman Johnson. Thank you very much. Mr. Weber.
    Mr. Weber. Thank you, Madam Chair. And I do have a report 
submitted from CenterPoint Energy I'd like to get into the 
record.
    Chairwoman Johnson. Without objection.
    Mr. Weber. Thank you. I'm fascinated by a couple things. 
The mesonet system I was unaware of. It looks like there's 110 
sites. Is this cellular-based? Do we know? Dr. Moore, I guess 
that would be for you. You seem to know more. You see what I 
did there?
    Dr. Moore. Yes, set me up. Yes, it is, and we actually work 
with the Oklahoma State Patrol and their communications system 
to make sure that we have very fast information. Every 5 
minutes it's updated, and that information then is available to 
anyone who logs on to the internet system.
    Mr. Weber. And there is an App for it?
    Dr. Moore. Yes.
    Mr. Weber. Do you have that App on your phone?
    Dr. Moore. Oh, yes.
    Mr. Weber. OK. All right.
    Dr. Moore. Everyone does.
    Mr. Weber. Everyone? I don't have it on my phone.
    Dr. Moore. Come to Oklahoma.
    Mr. Weber. Come to Oklahoma. That's north Texas we call 
that.
    And, Dr. Bostrom, you talked about the need to invest in 
social and behavioral sciences. What do you mean by that?
    Dr. Bostrom. There's a broad range of sciences that can 
help us understand both management opportunities and how people 
undertake management opportunities. For example, if we think 
about EPIC, there's a lot of interest in community modeling and 
how EPIC can advance what we know about modeling in the 
atmosphere.
    But it's very obvious from the discussion around EPIC that 
there are issues about how the community modeling itself should 
happen, what should be the procedures that guide it, and that 
kind of thing. There's a lot of research that can help inform 
what kinds of processes or methods for coordinating this could 
work better.
    There's also, of course, the obvious roles of behavioral 
and social sciences in improving communications and improving 
our understanding of how people assess their risks and act on 
them.
    Mr. Weber. That's a pretty tall order because I've lived on 
the Texas Gulf Coast in a 20-mile radius 66 years, 8 months, 
and 26 days. Who's counting? And I've been through a whole lot 
of hurricanes. And you see from Hurricane Ike, which most of 
you all would recognize, and then also obviously Hurricane 
Harvey and Tropical Storm Imelda was ground zero in mine and 
Dr. Babin's district here in the last 2 years, and people don't 
take that serious when they say it's time to evacuate.
    If there's going to be some kind of certainty that we can 
come out with, how do you convince people--a lot of people 
evacuated, for example, during Rita and Katrina and some of the 
others, and the Houston highways were just absolutely 
inundated--pardon that use of the expression. And people 
couldn't get out. And there were several deaths on the highway 
and they ran out of fuel and all kinds of stuff. And then a lot 
of them felt like they left needlessly.
    So how do you convince people through social and behavioral 
sciences that they can now trust our forecasts? How do you get 
to that point?
    Dr. Bostrom. There's evidence that people pay a lot of 
attention to warnings and official warnings in particular and 
that they're very important in influencing people's actions. 
People's actions are constrained not only by what they hear 
from the official warnings but also by their own response 
opportunities, what they can afford----
    Mr. Weber. Their own experiences?
    Dr. Bostrom. Their own experiences as well and what their 
neighbors are doing. There's all kinds of influences. So just 
being able to persuade people that they should evacuate is not 
the only thing that's going on.
    Mr. Weber. You mentioned that you study risk perception on 
page 1 and decisionmaking.
    Dr. Bostrom. Yes.
    Mr. Weber. Who is your target audience when you study that?
    Dr. Bostrom. It depends on the topic and the funding and--
--
    Mr. Weber. OK. Well, let's talk about storm decisionmaking 
and evacuation----
    Dr. Bostrom. Yes.
    Mr. Weber [continuing]. And how much funding?
    Dr. Bostrom. So storm decisionmaking and evacuation, the 
only work that I've done on that has been in the context of 
flash flood and hurricane forecast and warning systems. And 
there we were looking--it was a National Science Foundation-
funded project, so our target was understanding what it was 
about the forecast and warning system that might be improved 
and how it might be improved in terms of providing accessible 
and available information to the different parties in the 
system to be able to make good decisions. So that meant looking 
both at emergency managers and what they need. It also is how 
broadcasters get information on how they use it to talk to 
people.
    Mr. Weber. Sure. OK. Well, I need to move on here just one 
more question for Dr. Shepherd down here. When you're talking 
about predicting weather patterns and currents and inside of 
storms you talked about you couldn't get to the eye wall there, 
couldn't into those things, how do you with any degree of 
reliability predict wind currents and what the model airplane 
people call thermals, for example? Stuff just came up from the 
Earth. How do you predict those?
    Dr. Shepherd. Well, you know, the atmosphere is a dynamic 
and thermodynamic system with moist processes in it, so our 
models actually can identify thermals in those processes, but 
what I was talking about, those thermals if you will in the eye 
wall of a hurricane, we can get information from the brave 
hurricane hunters that fly into those storms. There are 
satellite systems. I actually was the deputy project scientist 
for one when I spent 12 years at NASA called the Global 
Precipitation Measurement mission or GPM. It actually has a 
radar in space, and so we can see something called hot towers, 
these bubbling thermals that you mentioned. And they provide 
clues that a lot of energy is being released in that hurricane 
and we might see a strengthening of the storm.
    Here's the problem. That instrument is only on a polar-
orbiting satellite that only gets a snapshot of the storm every 
now and then. So we need a generation of technology that's 
giving us more robust spatial coverage, perhaps a 
geosynchronous radar or a network of cube or small sats----
    Mr. Weber. OK. Very quickly. I'm about out of time. But 
when you say it only gets a snapshot, those orbit the Earth 
every 3 hours, 6 hours?
    Dr. Shepherd. So polar-orbiting satellites are in low-Earth 
orbit whereas our geosynchronous satellites are at about 35,000 
kilometers up, so they're just staring at the same spot on the 
Earth the entire time. So a couple of times a day perhaps or--
it just depends on the type of orbit the satellite is in. So we 
don't always have that information. We need more sustained 
information like that, and that's really the value of some of 
the advanced observation systems that NASA is looking at in its 
decadal survey.
    Mr. Weber. Thank you. Madam Chair, thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici.
    Ms. Bonamici. Thank you so much. Thank you to all of our 
witnesses here today. I was pleased to work with Ranking Member 
Lucas on the Weather Research and Forecasting Innovation Act of 
2017, which, thank you for the acknowledgment, many of you took 
important steps to strengthen the capabilities and 
communication of weather forecasts. We know extreme weather 
events like Hurricane Dorian, for example, remind us of how 
important that legislation was but also the value of the 
National Weather Service accurately and effectively 
communicating information.
    And if erroneous information is reported, it's the 
responsibility of the National Weather Service to refute it. 
It's exactly what the Birmingham office did earlier this month. 
And I know it's not the focus of today's hearing, but it's 
really important to acknowledge how those public servants help 
defend scientific integrity and what unfortunately became a 
political moment.
    I want to follow up on Mr. Weber's question to Dr. Bostrom. 
During the legislative hearings on the Weather Research and 
Forecasting Innovation Act, we had extensive conversations 
about how forecasts will not adequately serve the needs of the 
public unless there are effective communication systems. The 
bill directed NOAA to do more research, to listen to experts, 
to improve its risk communications techniques. It is my 
understanding that progress has been made, but the pace has 
been slow.
    In your testimony I thought it was really compelling where 
you talked about with Sandy, 72 percent of the residents were 
in mandatory evacuation zones in New Jersey stayed in their 
homes. And sadly, 117 people died. So this is an issue that 
affects human life, as well as property. There's always some 
uncertainty in forecasts, we know that. So what research gaps 
still persist in our understanding of how forecasters can 
effectively communicate in light of the uncertainty? And how 
can we better integrate social and behavioral sciences in the 
conversation about extreme weather events? Dr. Bostrom?
    Dr. Bostrom. Thank you for this question and for 
acknowledging the importance of the Weather Research and 
Forecasting Innovation Act. It's really an important step 
forward. But, as you said, progress has been slow. And while we 
have made progress in the social and behavioral sciences in 
this context over the last couple of decades, it has been very 
variable and limited funding devoted to this. We need research 
both on how the weather enterprise as a whole works.
    So, for example, if we think about what happened with 
Sandy, there are recent studies that have shown that people 
were paying a lot of attention--especially people in evacuation 
zones were paying a lot of attention to what was going on in 
various social media. They get information from a lot of 
different sources, and they're also paying attention to the 
environmental cues that are going on around them.
    Further, as mentioned previously, they're paying attention 
to their previous experiences. So if they don't----
    Ms. Bonamici. Right.
    Dr. Bostrom [continuing]. Expect a storm as bad as what 
they've said and as I believe it was Dr. Shepherd said, the 
storm surge is often the most dangerous. And we know from prior 
experience that--in the research field as well that people 
don't anticipate the dangers of storm surge still. The storm 
surge products that have come out communicating storm surge are 
relatively recent, and people didn't anticipate that things 
would be as bad as they were.
    So we need to understand both how to use those 
communication systems better, how forecasters can work with 
these teams better to understand what emergency managers need, 
and we also need to understand better ways of communicating to 
people the dangers of storm surge and what those can bring.
    Ms. Bonamici. Thank you. Still some work to do.
    Dr. Shepherd, yesterday, the Intergovernmental Panel on 
Climate Change released a special report on the ocean and 
cryosphere in a changing climate. The report found that warming 
oceans and projected sea-level rise will result in increasingly 
severe extreme weather events. And in your testimony you 
discuss how disparities in income, social status, and other 
factors result in hurricane, flood, and heatwaves having 
disproportionate and adverse effects on certain marginalized 
populations. We also know that extreme weather events differ 
based on geographical location. Mr. Lucas is in Oklahoma, and 
I'm in the Pacific Northwest. In the Gulf it might mean more 
hurricanes. In northwest Oregon it could be more intense rain, 
heatwaves, severe drought, wildfires, reduced snowpack. So how 
can we more effectively assist our local communities in 
assessing the scientific information they need to make informed 
decisions for resiliency planning, which is so critical?
    Dr. Shepherd. Thank you for that question. I live in the 
south where we get every single type of extreme event. It's 
actually unique in that regard. And we literally get every 
type. Coupled with that, if you look at the population based in 
the south, it tends to--particularly some of the southern 
States--to have low socioeconomic status in terms of the wealth 
gap that I've often talked about in some of my studies, and so 
that increases vulnerability when we have a heatwave or when we 
have a Hurricane Harvey. All you have to do is look at the 
faces staring at us in the Superdome during Hurricane Katrina.
    One of the things that we're doing in the State of Georgia 
is we've stood up, through funding from the Ray C. Anderson 
Foundation, a stalwart of the business community, is something 
called the Georgia Climate Project. And that was called out in 
the National Climate Assessment as a potential best practice, a 
solutions-oriented effort to connect climate processes at local 
levels through businesses, through stakeholders, 
nongovernmental organizations, and just regular people in their 
communities because there is a disconnect between all of this 
science jargon and mumbo-jumbo that we talk about as scientists 
and my aunt who lives in Canton, Georgia, or great aunt who 
knows none of this terminology but knows that they are 
experiencing events that affect the cost of cereal they buy or 
the price of gas when there's a hurricane plowing through the 
Gulf of Mexico.
    So we need to think about and something I want on the 
record, we need to think about these communities in our country 
that are extremely vulnerable and at higher risk for these 
events. And I echo your thoughts on the National Weather 
Service, and I want to thank, as the former President of the 
American Meteorological Society, all the men and women of the 
National Weather Service for what they do.
    Ms. Bonamici. Thank you. I see my time is expired. I yield 
back. Thank you, Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. Babin.
    Mr. Babin. Thank you, Madam Chair. I appreciate that. And, 
Ranking Member, I appreciate you. Thank you to the witnesses 
for being here today.
    I have the distinct privilege of representing southeast 
Texas, but unfortunately, that means that I'm far too familiar 
with these terrible storms and floods. And I continue to see 
these 2,000-year floods every 2 years. And we've had two 
sweeping through my district in the past 2 years, almost 2 
years ago to the day to when Hurricane Harvey swept through 
southeast Texas leaving a record rainfall in my district. 
Tropical Storm Imelda last week flooded the same Texans who 
were still recovering from Harvey. I've gotten calls from 
constituents who, just weeks ago, were finally able to move 
back into their homes when Imelda left them once more flooded 
out.
    Dr. Moore, Tropical Storm Imelda was upgraded from a 
typical rainmaker to a full-blown tropical storm, and many of 
my constituents were caught by surprise, including myself, as 
these floodwaters rose. Can you talk about the threat of rapid 
intensification, which some of you have addressed already this 
morning and sometimes just hours before landfall for hurricanes 
and how forecasters take this into account?
    Dr. Moore. Just building upon what Marshall Shepherd said 
earlier, that we really had a very unique meteorological 
condition, and yet we should be able to address unique 
meteorological conditions. And we have seen a pattern of our 
models not catching the intensification accurately. We've done 
better on the landfall prediction, but we don't seem to be 
catching the intensification, which is, after all, what really 
matters to those in the landfall region. I think that this is, 
again, where observations, particularly observations that are 
contemporaneous with the storm, that that is observations that 
are persistent is an absolute requirement. And I think that if 
we had a sounder in geostationary orbit, we would have done 
better in catching the intensification. It really is a product 
of the boundary layer in large measure.
    And I think that the fact that we failed to catch this 
intensification has had a counterproductive effect upon the 
body politic. People begin to say, well, it's uncertain or it 
wasn't predicted, and that leads to inaction. And so the fact 
that our models have let us down at certain stages should 
actually cause us to be more vigilant in terms of taking 
action. But people will say, oh, well, I've been through this 
before or there were this was uncertainty or the models are 
saying different things and they use that as kind of a logic 
for inaction.
    Mr. Babin. OK. Thank you very much. And, Dr. Sobel, I would 
say it's fairly common to see headlines claim that hurricane-
related inland rainfall and flooding has increased due to 
climate change. Just earlier this month The New York Times 
published an article that stated, ``Some attributes of storms, 
particularly the increasing amount of rainfall associated with 
many of them, have reached a very strong consensus.''
    Dr. Sobel. Yes.
    Mr. Babin. Yet NOAA concluded an anthropogenic influence 
has not been formally detected for hurricane precipitation. WMO 
stated, ``No observational studies have provided convincing 
evidence of a detectable anthropogenic influence specifically 
on hurricane-related precipitation.'' USNCA said, ``There is a 
lack of supporting detectable anthropogenic contribution and 
observed tropical cyclone data.'' And to me this seems like the 
very opposite of any type of consensus, yet alone a very strong 
one. In your opinion why is the public discourse, including 
from scientists, often at odds with thorough assessments like 
the ones NOAA, WMO, and others have published?
    Dr. Sobel. Thank you for the question. So I think it's 
important to understand the meaning of the word detect. I think 
that scientists in my field--and I include many of the great 
experts at NOAA who write those statements--but all of us use a 
very conservative standard. So what detection means is, can you 
say with 95 percent confidence that the changes we've seen 
could not have occurred without human influence? That's a very 
strong standard. And some of the limitations in that are simply 
the observations. In other words, you have numbers in 
intensities of hurricanes and rainfall that are fluctuating up-
and-down year-to-year naturally. Any trends are slow upon that. 
The observations themselves have limitations, as Dr. Moore has 
said, especially with rainfall, which isn't measured that well 
through all parts of the hurricane.
    So it's a question of--what those statements are saying is 
not that there aren't changes but that you can't say based on 
the observations with 95 percent confidence that they couldn't 
have occurred naturally. But I don't think that's the right 
question to ask.
    So we know that the atmosphere has more water vapor. We 
know hurricanes are very good at squeezing that out. So from 
all sorts of evidence we have from our physical understanding 
and our models show pretty substantial increases of rainfall in 
hurricanes.
    The observations are not contradicting that. They're simply 
so noisy that you can't pull out that signal. So I like my 
example of people speaking quietly in a crowded room. If it's 
loud, it doesn't mean--you know, you can't necessarily say with 
95 percent confidence what they're saying, but that's not a 
reason not to take it seriously. So I think that's where the 
tension is between the very conservative stance used for 
detection versus our scientific understanding of what's 
actually happening.
    Mr. Babin. Thank you very much. My time is expired, which 
is unfortunate because I have other questions.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you, Madam Chair. Thank you so much to 
our panelists.
    My longtime friend Mike McCracken, who is one of the co-
authors of the IPCC report that shared the Nobel Prize with Al 
Gore, has been pointing out for some time in ways that are very 
troubling that the historic challenge with our climate 
forecasts is that they are prone to underpredict the severity 
of what happens because what we fail to always appreciate is 
all the complexity of the feedback loops, and almost all the 
feedback loops are positive. He was out here last week saying 
how 10 years ago we didn't think the Antarctic ice sheet was 
going to melt, and now we see it melting and we have to start 
factoring that in.
    That leads to the reality that I think you all have well-
articulated, that extreme weather events are becoming more and 
more common, they are becoming more common than we need to, and 
I certainly thank you, Dr. Shepherd, for articulating the 
climate forecasting and the weather forecasting are two 
different things, but they connect in that extreme weather 
event moment.
    And I was rather concerned when the Trump budget forecast 
suggested we cut 110 employees from the National Weather 
Forecast. I raised those concerns to Dr. Jacobs when he was 
here, who assured me that the computers would be accurate. And 
you can imagine why, given Mr. McCracken's comments, that makes 
me a little nervous.
    Dr. Bostrom, your research on the importance of humans that 
understand how humans communicate so that what we want to be 
heard will be accurately heard I think is critical to making 
sure that we do that because that's a hard thing to do on a 
computer.
    Notwithstanding all of that, we have good people at the 
National Weather Forecast. We have really, really impressive 
models. They're really complicated. They're being adjusted in 
real time. All of Mike's concerns are being integrated into the 
next model, and yet those models have to compete with a 
President with a Sharpie. And that's not a joke. We have real 
people who are listening to that as well and trying to make 
decisions.
    And, you know, there's a reason why knowingly issuing a 
false weather forecast is a crime punishable by up to 90 days 
in jail.
    Dr. Shepherd, can you please explain to the Committee what 
the professional obligation is that exists for forecasters to 
correct the record when misleading weather information is 
causing unnecessary panic? And how do you balance that given 
the innate uncertainty to any forecast?
    Dr. Shepherd. Well, thank you for the question. And I--
again, as someone that has sort of represented the broader 
meteorological community as the President of the American 
Meteorological Society, I have talked with virtually every 
corner of this country in terms of the National Weather Service 
forecasters. If you look at the mission statement that they 
operate under, it is to protect lives and properties.
    I won't delve into sort of the political investigations or 
the political thought here, but I will say this very clearly. 
The obligation to be clear about the current situation with the 
meteorological forecasts for an extreme event like a Hurricane 
Harvey or Hurricane Dorian is of utmost importance. And I 
believe that's what the National Weather Service Birmingham 
forecasters were doing. And if that same situation arose again, 
they should do exactly the same thing.
    The second thing I believe is that by mixed messages--and 
we don't just see this in this particular situation. We as the 
meteorological community have an extreme challenge because 
there are all kinds of weather opinions and forecasts on social 
media and other places, and there always is this running joke 
as meteorologists, many meteorologists in the room, NOAA, that 
it must be nice to work in a field where we're wrong half the 
time and still get paid. Well, that's a myth. We are actually 
right most of the time but, just like in football, if a field-
goal kicker misses an important field goal in the Super Bowl, 
people remember that even if you made all the field goals all 
year long. That's the bias that we deal with and the myth.
    However, when we start questioning the expert forecast from 
the National Weather Service or the National Hurricane Center, 
that undermines and in my opinion jeopardizes safety of our 
public, of our citizens because if someone now starts to say, 
oh, well, I don't believe the National Hurricane Center 
forecasts and that hurricane is headed my way, they may make a 
poor decision in terms of a decision----
    Mr. Casten. I'm tight on time, but I want to get one last 
question in to Dr. Bostrom. Can you please share with us what 
the research shows about how people's trust in forecasts is 
impacted when they are confronted with false positives, and how 
does that threaten public safety the next time we have an 
extreme weather event?
    Dr. Bostrom. I'm hesitant to speak without my data in front 
of me, but thank you for the question. We know that trust is an 
essential component of any kind of communications process, 
especially with regard to risk. And we also know from the 
context of tornado discussions and warnings in particular, when 
people get false warnings, it does cause a decrement in their 
behavior. But not as much as some people might expect.
    That said, I don't think that we're talking about the kinds 
of situations in those research projects that we have here. It 
is clear that false alarms do cause a decrement to behavior. 
Having correct alarms is really important, and so the more 
correct alarms you have, the more you can offset those effects 
of false alarms. And people are often very concerned about 
missed alarms, so that's a really important problem. I hope 
I've answered your question.
    Mr. Casten. Yes. Thank you. And I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Rooney.
    Mr. Rooney. Thank you, Madam Chairwoman. And with 
permission, I'd like to introduce three charts to go with my 
comment if I might?
    Chairwoman Johnson. Without objection.
    Mr. Rooney. I'd like to ask Dr. Done and Dr. Shepherd a 
question about the deep ocean heat content and the relationship 
of CO<INF>2</INF> to that, and whether or not it's leading to 
stronger storms and what might happen if we can't arrest the 
rise in sea temperatures.
    This is a chart showing the rise in sea temperatures since 
the early 1980s, particularly the western Atlantic, western 
Pacific, and Gulf of Mexico. This is a chart showing the 
dramatic rise in the deep ocean heat content. And then this 
third one is one showing the same rise and breaking it out both 
above and below the 2,300-meter demarcation line. Thank you.
    Dr. Done. Yes, great question. So we know from the data 
that much of the warming is going straight into the ocean by a 
large amount rather than warming up our atmosphere. And in fact 
if all the warming stayed in the atmosphere, our average global 
temperature would be many tens of Fahrenheit warmer than they 
are today. So there's huge changes to the heat content in the 
ocean, and this has ramifications for extreme events.
    So we talked a lot today about hurricanes already. They 
feed off this reservoir of energy, this fuel. So even just a 1-
degree increase in the ocean heat content, say, in the Gulf of 
Mexico has vast impacts on the characteristics of extreme 
events such as tropical cyclones and attendant flooding, for 
example.
    Dr. Shepherd. Added to that, I mean, I think your point is 
valid. One of the things that most people don't realize is most 
of the quote/unquote global warming is happening in the oceans. 
That's about where 90-plus percent of the warming is going. We 
sort of quibble and argue about that small percentage in the 
atmosphere, but what I always tell my students at the 
University of Georgia is that heat in the ocean find its way 
back to the atmosphere through hurricanes, through changes in 
weather patterns.
    Something we haven't talked much about today but just 
changes in the heating patterns in the Arctic region, Arctic 
amplification, that communicates to where we live even if we 
don't live in the Arctic and we live in Dacula, Georgia, for 
example, the jet stream patterns that respond to those Arctic 
amplification changes some of the scientific studies suggest.
    So your question about, exactly, that you're pointing to in 
your graphic there, the thing to understand and why we need 
global observations is that the Earth system is a connected 
system, so something happening far off in the Arctic or in the 
Pacific Ocean can affect where we live.
    Mr. Rooney. Thank you. If I might, one more question for 
Dr. Bostrom and Dr. Sobel. Coral reefs play a very important 
part of our protection of shorelines, as well as our 
ecosystems, and science seems to be proving that stronger 
storms and ocean acidification are related. And so what I'd 
like to ask about is what can we do to reduce ocean 
acidification and to protect our coral reefs? And what is the 
correlation between ocean acidification and coral bleaching?
    Dr. Sobel. I'm not an expert on corals, so I don't want to 
give too detailed of an answer, but I do understand from my 
colleagues who study them that they are in big trouble due to 
both warming and acidification of the oceans. I can't say the 
relative roles of both of those, but it's a very serious 
problem.
    And I don't know that there's anything that can be done to 
stop ocean acidification on a practical level other than 
putting less carbon into the atmosphere. The oceans are taking 
up a large amount of that, and the ocean is so enormous that, 
you know, one can imagine geo-engineering schemes to put 
something in the ocean to mitigate it, but I don't think those 
are practical. And the same is true for the warming of the 
ocean. I really think mitigation of greenhouse gas emissions is 
the only answer there.
    Mr. Rooney. Here's a picture of a bleached coral, dead. 
Anybody else have any thoughts about it?
    Dr. Bostrom. I would just echo what Dr. Sobel said, that 
I'm not an expert in any of those things, but it's very clear 
that the strategies that we have to mitigate what's going on 
with coral reefs and other potential living systems that help 
protect the coasts require reducing greenhouse gas emissions.
    And geo-engineering strategies have been tested in the past 
with limited positive results as far as I understand, and we 
are in desperate need of new geo-engineering strategies and 
research on them.
    Mr. Rooney. Thank you very much. I yield back.
    Chairwoman Johnson. Thank you very much. Mrs. Fletcher.
    Mrs. Fletcher. Thank you very much, Chairwoman Johnson and 
Ranking Member Lucas, for holding this hearing. And thank you 
to all the witnesses who are here testifying this morning. Your 
testimony is really interesting. And I'm sorry I only have 5 
minutes. But I do want to follow up on a couple of things.
    We've heard from my two neighbors, Dr. Babin and Mr. Weber. 
We all represent southeast Texas, and I represent a portion of 
Houston, so these issues are near and dear to my heart and to 
my constituents who are still recovering from Hurricane Harvey, 
now from Imelda, and from four 500-year floods in 5 years. So 
we understand the remapping, the rainfall.
    And I think that there are a couple of things that I would 
just love to hear your thoughts on and get you to touch on. In 
particular I really liked in your prepared testimony and in 
your remarks this morning, Dr. Shepherd, the conversation or 
the comments about how we're messaging and how we're talking 
about what the real impacts are. And, for example, I just got a 
news report that, in addition to the other things we know about 
Imelda, there were nearly 100,000 pounds of toxins released in 
the air from related incidents to the rainstorm.
    So when you talked about how extreme weather affects our 
water supply, public health, infrastructure, energy systems, et 
cetera, I think it be useful to get your thoughts on what those 
things are and how we can talk about those, that it isn't--
while we all are concerned about some of the long-term effects, 
there are also immediate impacts that I think are useful to 
communicate.
    Dr. Shepherd. Sure, absolutely. I think it's critical. I 
think particularly if I were sitting in the shoes you all are 
sitting in because constituents resonate with how much they're 
paying for cereal or their gas prices or whether their child is 
vulnerable to a particular disease from a mosquito that 
couldn't live where they live now but can because of changing 
climate envelopes.
    So I just think--and I've written about this in an article 
I wrote in Forbes magazine about reframing climate not as the 
sort of esoteric or sort of very nebulous issue but about 
kitchen-table issues. And there are so many of them. There's a 
colleague that has--many of us are--not me but many of us fly 
out almost daily or fly on airplanes. There's scientific 
research that suggests that there will be more turbulent 
flights in a climate-changing environment.
    But the key point I often emphasize is there are things we 
can identify that are happening now, not 2080. These things 
are--and the question earlier from your colleague in southeast 
Texas--I think Adam handled it very well, the question about 
sort of this notion of uncertainties in reports. I don't think 
those reports are saying that things aren't happening. I think 
it's just semantics. We ran into that a little bit with the 
American Meteorological Society as well in terms of a report we 
issued because, as a scientist, we're trained not to say things 
in absolutes. And I think to our detriment to some degree, 
that's created some of the cloudiness, pun intended, in the 
discussion.
    Mrs. Fletcher. Yes, I'm a lawyer, and we also don't tend to 
speak in absolutes, but I do think it's an important point. And 
going back to that, another point you made--and I'd love to get 
anyone else's thoughts on this as well, so it's a sort of open 
to the panel--but the conversation about sort of climate change 
and whether humans have an impact seems to be a false choice. 
We know it's happening and it has been happening, and we also 
know that we can have an impact.
    And so if anyone wants to weigh in on how we kind of 
navigate that messaging to say--especially for those of us--I 
think we have a lot of constituents who believe that it's 
happening, who see the effects, who want to understand that you 
don't have to choose between--there's not one scientific theory 
or another, that they work together. So Dr. Sobel, I know this 
is an area you researched. Maybe you can share your thoughts on 
that.
    Dr. Sobel. An analogy that I find useful in this is we know 
that humans die of natural causes every day, many, many people. 
And this has occurred since there have been human beings. But 
that would be--to say that humans die of natural causes would 
be a pretty weak defense in a murder trial. If I were accused 
of killing somebody, that wouldn't get me off. I would have to 
show why I didn't do it.
    And similarly, I think the climate has always changed for 
many reasons, but we are a big reason now and we know that from 
many, many lines of evidence. So there's no inconsistency 
between those two things besides that analogy. There's many, 
many others one can come up with where there's multiple causes 
for things, but we know, you know, what the cause is now. So I 
don't know how to make the messaging better except to try to 
get that simple concept across.
    Dr. Shepherd. And a point I often make is that trees fall 
naturally in the forest all of the time, but that doesn't mean 
chainsaws are hoaxes.
    Mrs. Fletcher. That is a great analogy. I love analogies. I 
guess the last sort of question I would put out there is just 
what do you all think--and there's very little time--but what 
do you all think is the most important thing that our 
constituents need to know about how to prepare for a future 
with these more intense hurricanes?
    Dr. Done. Yes, perhaps rather ominously is that the biggest 
signal is that the most intense events are changing the 
fastest. So the category 4, 5 hurricanes, evidence is building 
that we'll see more of them in the future. The heaviest 
rainfall events over Manhattan, for example, are going to be 
even worse in the future. So with that understanding I think 
it's time to act.
    Mrs. Fletcher. Thank you very much. I see I've gone over my 
time, and I yield back. Thank you all.
    Chairwoman Johnson. Thank you very much. Mr. Waltz.
    Mr. Waltz. Thank you, Madam Chairwoman.
    Dr. Moore, as I'm sure we've discussed already, Hurricane 
Dorian, it was, as we all know, predicted to hit the east coast 
of Florida. I represent northeast Florida from Cape Canaveral 
up to Jacksonville. Three of the counties in my district, 
Volusia, Flagler, and St. John's, went under a mandatory 
evacuation based on the predictions. Obviously, Dorian never 
made landfall in Florida fortunately.
    This was a huge dilemma and hugely frustrating of when our 
county officials make those calls to evacuate. You don't want 
to overact, but obviously--and to the tune of significant 
expenditures, but on the other hand you don't want to underact. 
And obviously this is a call that we all have to collectively 
make every time one of these storms threaten the United States.
    In this case bottom line is we dodged--I don't even want to 
say we dodged a bullet; we dodged a missile. The category 5 
storm could have been absolutely catastrophic. And at one point 
I think we were looking at Hurricane Andrew, Hurricane Michael, 
and Hurricane Katrina maybe combined in terms of the original 
track. I know I personally was hitting the refresh button on 
the predictions probably seemed like about every 5 minutes. I 
think NOAA and the National Hurricane Center did as great a job 
and as good a job as they could informing the public every 3 
hours.
    Can you just take a moment and discuss the primary 
differences between the models that you use, the European model 
that we hear so much about and NOAA's? Are there any data 
points you would recommend NOAA include or weigh more heavily 
to improve the accuracy of these models? It seems like in this 
case the European model was pretty accurate. And if you could 
just talk to that for a moment because there are literally 
millions of lives and treasure that are dependent--it's a great 
thing that we have it, but what can we do to help improve it?
    Dr. Moore. Let me make three points. First of all, to the 
emergency managers at NOAA that had to make that call, if 
anyone doubts why we made the call or that NOAA made the call, 
look at what happened to the island offshore where it did hit, 
and just project that damage into Florida. And if you had 
people in harm's way and not being evacuated, it would have 
been a missile strike. It would have been a missile strike.
    Mr. Waltz. Oh, absolutely. And just in the interest of 
time, I'm not questioning at all the calls that were made. How 
do we, as we look forward, improve the accuracy of our models?
    Dr. Moore. I think what we have to also do is look at how 
the Europeans conduct their research. They marshal the best 
talent across Europe, and they focus that talent really on one 
model. And they say this is where we're making our bet. We have 
tended to focus our talent across many models and, at the same 
time, we have only used a portion of our scientific talent. In 
particular the university community has not been in a position 
to be as engaged in the development of the next generation of 
numerical weather prediction.
    And I hope with the EPIC initiative--and we thank Congress 
for this--and with the Innovation Act, that there is a 
recognition that the total United States scientific community 
from the social scientists to the physical sciences have got to 
be engaged in this grand enterprise.
    Mr. Waltz. Thank you very much. And I appreciate that 
answer. Again, in the few minutes I have remaining, and this is 
for anyone on the panel, Florida and Florida's Governor is, I 
think, leading the way in many ways in naming a Chief Science 
Officer and naming a Chief Resiliency Officer and trying to 
look at how we mitigate but then also how do we respond once we 
sustain that type of damage, and do we rebuild in smarter ways 
and more resilient ways than we have in the past? Would anyone 
care either for the time I have remaining or I'd appreciate it 
for the record of how we can be more resilient. I think Florida 
is leading the way post-Hurricane Andrew in wind resiliency, 
and we need to look at that in terms of flood resiliency with 
rising seas, with insurance markets, with property valuations. 
This is critical to the future of our State and the country. In 
the few seconds I have remaining, any responses, please?
    Dr. Shepherd. I'll jump on it, but I think James has some 
thoughts as well. At the University of Georgia we've stood up 
an Institute for Resilient Infrastructure Systems where we're 
thinking exactly about those because there is research by Phil 
Klotzbach and I believe--and Roger Pielke, Jr. and others that 
have shown the infrastructure along coastal regions has 
increased at the same time we're seeing these extreme events, 
so there has to be a sustained thought process for thinking 
about resilience and risk for our infrastructure in these 
regions.
    Dr. Done. Yes, just to build on that, just briefly, some 
work I did with my colleagues showed that the Florida building 
code is extremely effective against hurricane wind damage, and 
that's due to the strength of the code and how well it's 
enforced. And so building that nationwide would presumably 
bring similar benefits.
    Mr. Waltz. Thank you. And I welcome any other responses for 
the record. I think this is an incredibly useful conversation.
    Dr. Shepherd. Water resiliency, too, and not just wind.
    Mr. Waltz. Absolutely.
    Dr. Shepherd. Water gets underplayed, not just the surge--
--
    Mr. Waltz. That's right.
    Dr. Shepherd [continuing]. The rainfall.
    Mr. Waltz. Thank you, sir. Thank you, Madam Chairwoman.
    Chairwoman Johnson. Thank you very much. Mr. Lamb.
    Mr. Lamb. And thank you to all the witnesses for coming, 
and I'm sort of picking up where you left off, Dr. Shepherd, 
because intense rainfall in short bursts has really increased 
in western Pennsylvania where I represent in the last couple of 
years. July 2018 was the wettest month on record for us. And 
many of the people that I represent live at the bottom of the 
big hillsides that line our rivers where we are. And many of 
these are old mill or manufacturing towns. That's why they were 
located there in the first place. And so these are middle-class 
communities.
    I walked through a woman's home this summer who was born in 
that house, and she bought it from her parents and is in her 
60s now and has just watched it flood every single summer for 
the last few years because, as Dr. Done helpfully pointed out 
in his written testimony, Pittsburgh has not really changed its 
stormwater infrastructure in the last century. We have failed 
to keep up. I place a lot of the blame for that at the national 
level and our inability to work together on an infrastructure 
package that actually meets the challenges of the modern day. 
So that's something we're not going to give up on and we're 
going to keep working on.
    But I would like maybe if a couple of you could delve into 
the details of the scientific consensus that these intense 
rainstorms are caused by climate change and by global warming. 
You know, the average person on the street in Pittsburgh can 
tell that they're happening more frequently than they ever 
happened before. I have an Aunt Patsy who's 99 years old and 
lived at the bottom of one of those hills for a long time, and 
she's remarked at how different it is now.
    But, Dr. Done I think it was referred in your testimony to 
a fundamental scientific principle that moisture in the 
atmosphere is increasing for every degree of warming.
    But I think what would help me would be if you could 
describe how sure are we? You know, I've heard it said, for 
example, that the scientific consensus on anthropogenic climate 
change is now roughly equivalent to the scientific consensus on 
gravity. So is there another analogy like that that can help me 
communicate to my constituents how sure we are the cause of 
these rainstorms and the flooding that comes with them?
    Dr. Done. Yes, as a scientist, we look at two main drivers 
of extreme events. We look at so-called thermodynamic drivers, 
which is changes in heat and moisture, and then we look at 
changes in the circulation, so the changes in the weather 
patterns. We like to separate those two, and we're very 
confident in changes to the heat and the moisture--or changes 
due to those increases. We're less sure on the changes in 
extreme events due to circulation.
    So when I'm talking about changes in extreme precipitation 
in the northeast, for example, I tend to talk about changes in 
frequency of weather patterns, you know, changes in high-
pressure weather patterns or troughs of the eastern U.S. and 
talk about changes in the frequency of those different 
distributions. It seems to be an effective way of communicating 
extremes.
    Dr. Shepherd. And I would say that the report that Adam and 
I both worked on for the National Academies, we ranked our 
confidence in changes in extreme events, and top 1 or 2 percent 
rain events we were very confident in the notion that they're 
coupled to climate change. Adam?
    Dr. Sobel. Yes, the influence of warming on extreme rain 
events is not quite at the level of gravity, but it's getting 
closer.
    Mr. Lamb. Getting----
    Dr. Sobel. I mean, the rule that we used in the report that 
Dr. Shepherd just mentioned is that the more closely any given 
type of event is related to temperature, the better we 
understand it. And extreme rain events--so heat--that's why 
heat is the simplest, but extreme rain events are the next 
simplest because the water vapor in the air is so closely 
related to temperature.
    The other thing I want to say here that's important to 
understand is that we have several ways of knowing what's 
happening in the atmosphere. One is the observations, the other 
is understanding the physics, and the third is the models that 
we use to predict climate and weather. In the case of extreme 
rain events, they're all giving the same answer at least in 
direction, so we understand there's more water vapor in the 
air, and the extreme rain events are the ones that are really 
good at squeezing that out. And so the way they change is 
closely coupled to the amount of water vapor in the air and 
thus to the warming. The models also predict they should be 
getting heavier uniformly. And we can see it in the 
observations. If we look at all extreme rain events----
    Mr. Lamb. I'm going to cut you off there just because there 
was one last thing I wanted to get in before my----
    Dr. Sobel. Sure.
    Mr. Lamb [continuing]. Time expires, but thank you.
    Dr. Done, I think your work on the building codes in 
Florida is great, and I'd like to see more of it for different 
uses in parts of the country. It comes to mind for me that 
those two pictures you put in your testimony of Pittsburgh, the 
implication is the infrastructure hasn't changed.
    There's one way in which the infrastructure did change in 
that time period you're talking about, which is that in the 
1930s and 1940s America built a series of dams, locks and dams. 
But one of the dams in particular was a direct reaction to the 
flood of downtown Pittsburgh, the same place you have a picture 
of in 1936. And that dam cost roughly in today's dollars around 
$5 million to build. And there have been estimates that it's 
probably prevented over $500 million of flood-related damages 
that come from when you flood a downtown of a major city.
    And so is there more work like what you've been doing that 
we could do from the government or from the National Science 
Foundation or otherwise? Can you just give me a little bit of 
insight into that?
    Dr. Done. Yes, that's a great point. Building dams is 
building resistance to extreme precipitation events. I think 
there's a lot to pursue in terms of building safe-to-fail 
infrastructure, so this would allow communities to absorb some 
of the event so rather than building a wall or a dam higher and 
higher and higher because there's always going to be a worse 
extreme, I think it's vital to--now we're in a new era of 
changing extremes to absorb this notion of what we call 
graceful failure, so where we absorb some of the shock but we 
can get back on our feet very quickly.
    Mr. Lamb. Thank you. Madam Chairwoman, I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Posey.
    Mr. Posey. Thank you, Madam Chair, for holding this hearing 
today on forecasting and communicating extreme weather. I 
assure you it's very important to the citizens of Florida 
because it saves lives.
    In 2004 and 2005 Florida was hit by a series of severe 
hurricanes, about five of them I believe, which caused damage 
in every single county. All 68 counties were damaged, and most 
of them pretty significantly. The insurance companies obviously 
went ballistic almost immediately and doubled or tripled 
everybody's rates because the reinsurers did the same thing. 
And we started getting copies of their gloom-and-doom forecasts 
for the future, that it would only get worse the next year and 
progressively and progressively and progressively. And surely 
that in just a few years there would be no insurance left for 
anybody or there would be no one who could afford the 
insurance.
    And the State lawmakers were concerned by that, so they 
hired their own actuaries, their own data study people and the 
result was even worse than the insurance companies had told us, 
so it was pretty bad.
    We received one unsolicited suggestion and analysis from a 
fellow named Dilley, a retired forecaster with the National 
Weather Service. Any of you ever heard of him? Just shake your 
head if you have heard of him before. And after he retired, he 
started tracking severe weather as a hobby. And so rather than 
go review the statistical maps and timelines and take a 
statistical approach to the whole thing, he focused on way 
upper weather patterns. And Mr. Dilley told us, he said I only 
go 8 years out with my forecasts, but he said I think you guys 
are good to go for about 8 years before you're going to have 
another severe hurricane hit Florida. And you may have a little 
action in the southwest part of the State, but it won't be 
severe.
    Most people laughed at this guy, but history proved that he 
was right on the money. And so I'd like to know if you're 
familiar with his type of analyses, who does it, or other 
thoughts that you might have on it, and we might start with 
Mrs. Bostrom.
    Dr. Bostrom. Well, that is way out of my bailiwick, but I'd 
like to--something came to mind why you were talking, and that 
was the predictions of earthquakes. But you can sometimes be 
right about something even if the method that you're using 
isn't terribly good. So I would really need to know a lot more 
and otherwise conclude that this was a coincidence that he was 
correct.
    Dr. Shepherd. Yes, I was going to say the same thing. You 
know, a broken clock is right twice I guess in a day and so----
    Mr. Posey. Well, he wasn't right once. He was right eight 
times, and everybody else was wrong eight times.
    Dr. Shepherd. Sure. I mean, and that's still a small in the 
eight. So what I tend to sort of look at when I look at these 
sort of--because as meteorologists we hear all kinds of things 
about rodents that predict the weather and almanacs, but I tend 
to go with the sort of peer-reviewed literature. Now, I would 
certainly love to see his methodologies published, and I think 
that's what the peer-reviewed literature is for. So if Mr. 
Dilley is listening out there, I would invite him to sort of 
publish that methodology so it can be evaluated because he may 
be onto something. I would just suggest that I wouldn't want 
the National Weather Service and colleagues to sort of change 
their overarching principles and methods based on a sample of 
eight.
    Mr. Posey. I'm not suggesting that, just curious if anybody 
else had heard of that, you know, and what your thoughts about 
it are.
    Dr. Shepherd. No----
    Mr. Posey. Dr. Moore, anybody else have any thoughts about 
it? Nobody else thinks it's worth investigating?
    Dr. Sobel. I don't know this fellow's method, but we could 
talk about the reinsurance rates in Florida after 2005 if 
that's of interest. The reinsurance rates are influenced by a 
lot of things, and it is true that there's market forces--so 
there's an emotional response either to an event that just 
happened or a sequence of no events, so the rates go up a lot 
of there's a bunch of bad events, and they go down if there 
haven't been any for a while in a way that probably fluctuates 
more than it should.
    The risk is sort of a slowly changing thing, but how often 
the risk is realized is a different thing. So you have car 
insurance, but you're not going to crash your car every day. 
So----
    Mr. Posey. Reinsurance----
    Dr. Sobel. Yes.
    Mr. Posey [continuing]. Is different in a lot of different 
ways.
    Dr. Sobel. Yes, but----
    Mr. Posey. Number one: They're all housed in the same 
offshore island, and they all charge the same rate and change 
their rates at the same time. We'd call that a monopoly if they 
were on the mainland.
    I thank you, Madam Chair. I see my time is expired.
    Chairwoman Johnson. Thank you very much. Mr. Foster.
    Mr. Foster. Thank you, Madam Chairwoman. And thanks to our 
witnesses. And my apologies for having been in and out of this 
hearing.
    One of the things I'm hearing a lot of excitement about 
from the computational physicists at Argonne Lab that I 
represent is the impact of artificial intelligence on things 
like dynamic mesh reconfiguration and getting effective models 
at small scales that are applicable to large-scale modeling. 
And they believe that in some applications that may buy more 
than a factor of 10 a maybe 100 in the amount of bang for your 
buck for a given level of computational power. And is that also 
happening in the weather prediction regime, and is there any 
way to quantify--is that going to buy us 1 or 2 days of 
additional forecast accuracy or something along those lines?
    Dr. Done. Yes, there's a great methodology. And, you know, 
at the National Center for Atmospheric Research, we've engaged 
with this so-called mesh refinement technique with the weather 
research and forecasting model, so we have about a decade of 
experience in real-time forecasts and hurricanes. Now, the key 
point is that they're computationally cheap, and so we can run 
it more than once. We can run, say, an ensemble of 50, so this 
allows us to really describe and draw out the future possible 
scenarios to enable more robust responses.
    Mr. Foster. Yes. But do you have any estimate at this point 
of what that's going to buy in terms of accuracy? You know, 
because you sort of hit this chaotic wall at a week or 2, and I 
was wondering does this allow you to push closer to the chaotic 
wall or is the chaotic wall so sharp that even these techniques 
aren't going to make things better? Yes, Dr. Moore?
    Dr. Moore. The chaotic wall is there irregardless, but what 
this allows you to get at is the so-called convective resolving 
models so that the models actually can begin to resolve clouds 
and convective--particularly the third dimensional motion of 
the atmosphere. And that is extremely important in any type of 
numerical weather prediction. The work that is being done at 
Argonne really is first rate in getting us toward the 
capability of doing convective resolving. And then you can 
begin to assimilate satellite data at these higher spatial 
temporal resolutions to further tamp down the chaotic aspect. 
Satellite observations and sunsets always draw us back to 
truth.
    Mr. Foster. And then at the end of the rainbow is, you 
know, the concept of being able to actually steer hurricanes. 
And, you know, about a decade ago Bill Gates had this patent 
that got a certain amount of press that, you know, with a 
relatively small change to the surface temperature of water the 
thought was you could either suppress or steer hurricanes. And 
has that been looked at and modeled by anyone? Is it completely 
hopeless or if you could do something relatively minor, can you 
actually steer hurricanes?
    Dr. Sobel. I don't think you can do anything with something 
minor. Hurricanes are very enormous and have a huge amount of 
energy. So steering I don't think is practical. What could be 
done----
    Mr. Foster. Well, what I was thinking of is if you're near 
a----
    Dr. Sobel. Yes.
    Mr. Foster [continuing]. Disturbance in the air, the 
chaotic wall----
    Dr. Sobel. Yes.
    Mr. Foster [continuing]. Would have a very high impact if 
you could calculate what that impact would be, you know, the 
butterfly----
    Dr. Sobel. Oh, so you're not talking about actually 
changing the path of the storm but just predicting it?
    Mr. Foster. Well, if you could predict it accurately and 
predict the effect of a small perturbation early in the 
development of the storm----
    Dr. Sobel. Right.
    Mr. Foster [continuing]. Conceivably, that would have a 
large impact on the trajectory.
    Dr. Sobel. Yes, I mean, it may be physically possible. My 
guess would be that you still take a huge amount of energy to 
do it. What I think is better understood and what I think the 
Gates project was getting at was changing the intensity, which 
if you can cool the ocean's----
    Mr. Foster. The surface temperature, right.
    Dr. Sobel [continuing]. Surface enough you could do that, 
but it still would take--you'd have to do that over a very, 
very large scale and have to operationalize it very quickly as 
the hurricane developed. So my sense is that the cost it would 
take to do that would be better spent on measures to protect 
life and property and get people out of harm's way. But 
that's----
    Mr. Foster. Well, I was wondering if something that can be 
done very early in the development may have a very large lever 
arm to affect the course and, you know, things like, I don't 
know, seeding clouds and stuff that I guess it's sort of well-
understood and pretty minor might be able to, if it's done 2 
weeks in advance, actually have a noticeable and useful effect.
    Anyway, if there's any work that's been done on that, 
that'd be fascinating to read myself to sleep with it when it's 
possible because it's not obviously from first principles 
impossible.
    Let's see--and I have now 15 seconds, yes, but--so I have 
no 15-second questions left, so I'll yield back.
    Mr. Beyer [presiding]. Great. The Chair recognizes the 
gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I thank all of our 
witnesses for testifying today.
    I have long been on this Committee, have been concerned 
about staffing at the National Weather Service, and the 
Administration proposed eliminating 20 percent of the 
forecasters, closed some of the offices on nights and weekends 
has been very concerning to me.
    I want to ask a question--I know no one is here from the 
National Weather Service, but I just wanted to ask this 
question and see if anyone had experience or comments on this. 
I know after major storm events that lead to major economic 
impact and fatalities, the National Weather Service employees 
are called in to evaluate response performance. So I'm curious 
if any of the witnesses on our panel have reviewed these 
service assessments and used them in your research efforts, 
particularly as you evaluate impacts and responses to extreme 
weather events. And if so, have you noted any impact from the 
understaffing that impedes National Weather Service's ability 
to respond during extreme weather events? Dr. Shepherd?
    Dr. Shepherd. I haven't done research in that, but I will 
say that it's important that our National Weather Service 
offices are fully staffed, particularly in these extreme events 
or these sort of long-term sustained events. I've heard stories 
of National Weather Service employees during shutdowns or 
sequestrations and things like that slogging to work in snow 
and those types of things, and those aren't hyperbole. Those 
things happen.
    I wrote an article once about the sort of psychological 
fatigue and the sort of mental aspects that meteorologists deal 
with in these offices. You know, the first responders, kudos to 
them and thank them for what they do in the emergency response, 
but oftentimes meteorologists carry a burden because they are 
forecasting and predicting events that are going to change 
people's lives. And that's a tough sort of psychological 
burden.
    So I say all of that to say that again, I have not done 
research--I don't know if anyone has--but I would always 
advocate that our National Weather Service offices are never 
cut in terms of staffing. In fact, if anything, they probably 
need to be upgraded because they've been short-staffed in some 
regards. I know my friend Louis Uccellini at the National 
Weather Service has tried to be responsive to this, and there 
are pressures and forces beyond his control, but those offices 
need to be fully staffed.
    Dr. Moore. Let me just mention, we've been critical of 
numerical weather prediction capability of our models and so 
forth, but that should not extend into being critical of the 
National Weather Service per se. The work that they do--and in 
particular I remember the Storm Prediction Center at the 
University of Oklahoma National Weather Center talking about a 
tornadic outbreak in the Illinois-Indiana area in November. And 
they were speaking about it 10 days out. And eventually we got 
into the endgame and there was a tornadic event, but by that 
time FEMA (Federal Emergency Management Agency) had facilities 
on the ground, the body politic was prepared. And really the 
fact of what we're able to do in terms of weather prediction 
and protection for our society is really extraordinary. It 
really is one of the grand accomplishments of science.
    Mr. Lipinski. And Dr. Bostrom?
    Dr. Bostrom. Yes, I'd like to echo what Dr. Moore said and 
also what Dr. Shepherd said that the National Weather Service 
does an enormous service to the country in protecting people, 
and there have been in the testimonies earlier this year from 
Dr. Uccellini and others examples of how the Weather Service 
has been able to provide information that has equipped 
emergency managers to help their communities.
    Phaedra Daipha has written some research that is 
ethnographic that look at what goes on in Weather Service 
offices, and you can see from that that they're overtaxed, that 
they're underequipped and understaffed. And they work really 
hard to cover their jobs and are doing the best they can. And 
her work is a call for better staffing at the National Weather 
Service. And Dr. Uccellini and others have tried very hard to 
make sure that the staffing has improved. They've made some 
progress, but, as you can tell, it's an uphill slog.
    I have not done research on the service assessments, but 
they're a really important contribution in terms of providing 
feedback on how this all works. And it's been clear from the 
service assessments that have been done that there are a lot of 
things that need to be improved about how the whole system 
works. That does not mean that people are not doing their jobs. 
They're doing an excellent job.
    Mr. Lipinski. Thank you. And I don't really have time for a 
question, but I just wanted to point out the recent assessment 
of impacts of climate change on the Great Lakes put out by the 
Environmental Policy and Law Center. And this is something that 
I think really brought a lot of attention to the impacts in the 
midwest--I don't have time right now to ask about that, but 
maybe in follow-up I will ask you all about that. But thank you 
very much. I yield back.
    Mr. Beyer. Thank you. And the Chair now recognizes the 
gentlelady from Virginia, Ms. Wexton.
    Ms. Wexton. Thank you, Mr. Chairman. And thank you to the 
panelists for coming and joining us today.
    The frequency and severity of extreme weather is clearly 
something that's of interest to everybody on this Committee. I 
don't think there's a single one of us who our district has not 
been impacted in some way. And my home, as the Chairman stated, 
is in Virginia where we have seen increased inland and coastal 
flooding, more days with the heat index above 105 degrees, and 
lots of these extreme rainfall events that have caused a great 
deal of damage to roads and infrastructure. And, in fact, in 
the lead up to Hurricane Florence, almost a quarter million 
Virginians were ordered to be evacuated from low-lying flood-
prone areas throughout the Commonwealth. So we rely as a State 
and our localities as well rely on NOAA and the National 
Weather Service to help them make informed decisions about when 
the public safety is at risk.
    So I would ask of everybody on the panel, how important is 
it for the Weather Service to be federally funded, readily 
available to the public, and completely separate from private 
interests? Dr. Shepherd?
    Dr. Shepherd. I think this is an area where we've come a 
long way in the weather enterprise. I'm speaking sort of on 
behalf of the weather enterprise. There was I would say a 
tension between the sort of public-private partnership. But I 
think we found our rhythm. I think there are very clear roles 
for both the private sector and the public sector in this 
partnership. I think the recent weather legislation has sort of 
provided other opportunities for the private sector to kind of 
get into this.
    I still view many of the services provided by the National 
Weather Service as sort of what I consider like police and fire 
services, sort of federally sort of designated services that we 
need, irrespective of profit margins, irrespective of other 
things because they provide very critical information. But I 
think in terms of the value-added services, some of the 
nimbleness and some of the observations, I think there is a 
role for the private sector as well. But I think some core 
services certainly need to be maintained. I think EPIC is 
providing a nice model for us, though, of how a public-private 
partnership can work.
    Dr. Done. Yes, I'd like to speak to the value of sustained 
National Weather Service staffing. Through decades of observing 
weather, you can really understand and get some unique 
intelligence on how the weather works.
    So I'll give a quick example that happened just 2 weeks ago 
over in northern California. There was an outbreak of so-called 
dry thunderstorms. So it was spoken a lot today about the 
advances we've seen in our simulation capacity, but these kind 
of events, they don't exist in our weather prediction models, 
so it's only through experience that the forecasters could see 
the weather pattern, they know that there's a risk of these so-
called dry thunderstorms and the lightning that can trigger or 
raise fire risks. So this speaks to the importance of a 
sustained staffing of the Weather Service.
    Ms. Wexton. OK. Before we go down the rest of the panel, I 
just want to express to you a concern that I have because the 
gentleman who has been tapped to lead NOAA, Barry Myers, has 
previously advocated for NOAA to restrict the amount of weather 
information that is provided to the public. And he 
uncoincidentally at least was one of the majority shareholders 
in a private company AccuWeather. And even though they get all 
of their information from the National Weather Service and 
NOAA, they then want to sell it back to the American public at 
a profit. And I mean, there's inherent conflict of interest in 
there in my mind.
    So I guess, you know, building on my earlier question, do 
you see potential conflicts when you have private industry who 
is restricting the information that's getting out to the public 
in weather? Dr. Sobel?
    Dr. Sobel. So I think the private sector has an important 
role to play, but as Dr. Shepherd said and as I think you're 
eluding to, the Federal Government does the core work to make 
the weather forecast possible, launches the balloons and runs 
the satellites, and runs the models. The private sector is 
doing value-added on top of that. So it is like police and 
fire. There should be a public weather forecast available to 
everyone done by the government employees, and the private 
sector has a tremendous role and is doing very well, adding 
value to that, and so I think the way it's been done 
historically has been working, has been evolving in a way, but 
we should keep the National Weather Service strong and making 
public forecasts as it has been.
    Ms. Wexton. And I have no qualms with the private sector 
adding value to that work which is provided by the National 
Weather Service and NOAA. What my issue is, restricting----
    Dr. Sobel. Yes.
    Ms. Wexton [continuing]. The information that is readily 
available to the public for the purposes of getting a profit 
so----
    Dr. Sobel. I completely share your concern there.
    Dr. Shepherd. Yes, and the taxpayers pay for these 
services, so I will just say without commenting on any specific 
person or their thoughts or companies, but, you know, I often 
remind people that the satellites and the weather models were 
paid for with their taxes.
    And by the way, the National Weather Service is funded on 
about the cost of a cup of coffee for every American citizen, 
so it's one of the biggest values in the Federal Government.
    Ms. Wexton. It certainly is. And on that note I don't think 
we can improve on that testimony. And I see my time is expired, 
so I'll yield back. Thanks.
    Mr. Beyer. Thank you, Ms. Wexton. I now yield 5 minutes to 
myself for questions.
    I'd like to just begin by thanking you very much for making 
an extraordinarily powerful case for the urgent need for all of 
us to address climate change and in any way that we can, which 
leads me inevitably to conversations about carbon pricing 
because I think most of us would agree, you know, every 
economist across the political spectrum from very conservative, 
very liberal thinks that we should price the things we don't 
want as high as we can and the things we do want as low as we 
can.
    In fact, it's been very bipartisan. Francis Rooney, who 
asked some great questions earlier, is a lead sponsor of a 
carbon pricing bill. And Carlos Curbelo, recently of this body 
led that effort significantly. And we have all these 
corporations, ExxonMobil, BP, I think Chevron or Shell, you 
know, the world is coming together on it. But my sense is that 
this Congress won't take up a carbon pricing bill because we're 
not going to get anywhere in the Senate with it. And we still 
have some political--actually partisan resistance.
    So I want to go back to the NOAA estimate from earlier this 
year that we had $91 billion in damages in 2018 from extreme 
weather events and $306 billion in the U.S. from extreme 
weather events. When you put all those together, doesn't it 
sound like we have a hell of a carbon fee anyway? Dr. Done?
    Dr. Done. Yes, absolutely. That's a very important point. 
We are already paying for climate change through our losses. 
And in fact I know--and through my conversations with the 
reinsurance industry that they can see the footprints of 
climate change in their loss data. So climate change is 
becoming central to everything--well, much of what the 
reinsurance industry does. They've realized they can no longer 
look backward if they want to assess today's risks; they must 
also look forward. And that demands scientific understanding of 
what's tomorrow, 10 years, 50 years from now.
    Mr. Beyer. To that exact thing, Zurich Insurance came to 
see me and my wonderful staff recently to make exactly that 
case, that is a look at how much reserves they have to have 
down the road, please do something about climate and start with 
carbon pricing.
    Dr. Shepherd, the compound extreme weather events, you've 
talked about that a little bit, the notion that, you know, the 
hurricanes, followed by the flood, the wildfire, the heat is 
followed by the wildfire. Can you talk about how difficult it 
is, what progress we can make in terms of predicting the 
compound weather events?
    Dr. Shepherd. So this conversation we were having earlier--
thank you for the question. I think that there's inherently 
nothing different about the model's ability to handle a 
singular event from a compounded event, but as we were talking 
earlier, those secondary events, the complexities of those, how 
they may be resolved--I think Professor Moore has been talking 
about these--there may be some secondary events that are not as 
well-resolved that are underplayed. We just saw that, for 
example, with Imelda in terms of that trough, that mid-
latitude, non-tropical system sort of suffering some.
    So I think if there is one area among many actually that I 
would recommend further study, research funding, et cetera, 
through the National Science Foundation, NOAA, NASA, or others 
is in understanding how our modeling capabilities are 
addressing these multiple compound events because I think this 
is an emerging area of study. I know Professor Sobel mentioned 
that there is some work in a workshop recently that has been 
held. But I think this is fertile ground for new research.
    Mr. Beyer. Yes, thank you. And Dr. Bostrom, Dr. Done had 
talked about the difficulty of attribution, especially when you 
look at so much, you know, impervious surfaces everywhere, the 
urbanization of the world, a growing population, 7 billion. How 
do we tease out the climate change signal from the other 
factors that are affecting the extreme weather events and the 
impacts of the extreme weather events?
    Dr. Bostrom. As in any scientific problem, what we try to 
do is come up with counterfactuals and then figure out what the 
specific attribution can be for any specific factor that's 
driving a change like climate change. So as everybody's been 
talking about, we have models of what's driving specific 
damages, what's driving specific hazards. And in those models 
we're generally using simulation models to try to find out what 
we can attribute to a specific event.
    That's hard to talk about, and so I think the easiest thing 
for people to understand is that--to tell them--to show them 
examples where they wouldn't have seen the same kind of damage 
or the same type of effect without the specific fingerprint or 
thumbprint of climate change.
    Mr. Beyer. Great. Thank you all very much. We have been 
abandoned by the other Members of Congress, who are off doing 
the people's work, so I just want to thank you very much. And 
thank you for all that you do in your professional lives to 
keep us safe, to work on our economic and our personal 
security. We're very, very grateful for the work that you do.
    And thanks for being here today. It's often an anxious 
event appearing before all the mean people on this dais, but 
you survived it very well.
    The record will remain open for 2 weeks for additional 
statements from Members and for any additional questions the 
Committee Members may have for you.
    So with that, the witnesses are excused. The hearing is now 
adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


             Report submitted by Representative Kendra Horn
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          White Paper submitted by Representative Kendra Horn
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

            Document submitted by Representative Randy Weber
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

           Charts submitted by Representative Francis Rooney
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                    Report submitted by Dr. Bostrom
    Report can be found at: https://www.nap.edu/resource/24865/
briefing.slides_31October.For%20BASC.pdf

                                 [all]
</pre></body></html>
